<html>
<title> - CRUMBLING INFRASTRUCTURE: EXAMINING THE CHALLENGES OF OUR OUTDATED AND OVERBURDENED HIGHWAYS AND BRIDGES</title>
<body><pre>[Senate Hearing 113-330]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-330
 
CRUMBLING INFRASTRUCTURE: EXAMINING THE CHALLENGES OF OUR OUTDATED AND 
                   OVERBURDENED HIGHWAYS AND BRIDGES 

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                     JUNE 13, 2013--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations

   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-752 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                      COMMITTEE ON APPROPRIATIONS

               BARBARA A. MIKULSKI, Maryland, Chairwoman
PATRICK J. LEAHY, Vermont            RICHARD C. SHELBY, Alabama, Vice 
TOM HARKIN, Iowa                         Chairman
PATTY MURRAY, Washington             THAD COCHRAN, Mississippi
DIANNE FEINSTEIN, California         MITCH McCONNELL, Kentucky
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN M. COLLINS, Maine
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
JACK REED, Rhode Island              LINDSEY GRAHAM, South Carolina
FRANK R. LAUTENBERG, New Jersey \1\  MARK KIRK, Illinois
MARK L. PRYOR, Arkansas              DANIEL COATS, Indiana
JON TESTER, Montana                  ROY BLUNT, Missouri
TOM UDALL, New Mexico                JERRY MORAN, Kansas
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
JEFF MERKLEY, Oregon                 MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska                  JOHN BOOZMAN, Arkansas

                   Charles E. Kieffer, Staff Director
             William D. Duhnke III, Minority Staff Director
                                 ------                                

 Subcommittee on Transportation and Housing and Urban Development, and 
                            Related Agencies

                   PATTY MURRAY, Washington, Chairman
BARBARA A. MIKULSKI, Maryland        SUSAN COLLINS, Maine
RICHARD J. DURBIN, Illinois          RICHARD C. SHELBY, Alabama
PATRICK J. LEAHY, Vermont            LAMAR ALEXANDER, Tennessee
TOM HARKIN, Iowa                     LINDSEY GRAHAM, South Carolina
DIANNE FEINSTEIN, California         MARK KIRK, Illinois
TIM JOHNSON, South Dakota            DANIEL COATS, Indiana
FRANK R. LAUTENBERG, New Jersey \1\  ROY BLUNT, Missouri
MARK L. PRYOR, Arkansas              JERRY MORAN, Kansas
JACK REED, Rhode Island              JOHN BOOZMAN, Arkansas

                           Professional Staff

                              Alex Keenan
                          Meaghan L. McCarthy
                             Rachel Milberg
                              Dabney Hegg
                      Heideh Shahmoradi (Minority)
                         Ken Altman (Minority)
                       Jason Woolwine (Minority)
                        Rajat Mathur (Minority)

                         Administrative Support

                               Dan Broder

----------
    \1\ Died on June 3, 2013.



                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Patty Murray........................     1
    Prepared Statement of Senator Patty Murray...................     4
Statement of Senator Susan M. Collins............................     6
    Prepared Statement of Senator Susan M. Collins...............     8
Statement of Hon. Polly Trottenberg, Under Secretary For Policy, 
  Department of Transportation; Accompanied by Hon. Victor 
  Mendez, Adminstrator, Federal Highway Administration, 
  Department of Transportation...................................     9
    Prepared Statement of Hon. Polly Trottenberg.................    11
Restoring Infrastructure.........................................    11
Improving Our Nation's Bridges...................................    12
Infrastructure Debate............................................    12
Meeting Future Demand and Funding Sustainable Investment.........    13
Statement of Phillip R. Herr, Director, Physical Infrastructure 
  Issues, Government Accountability Office.......................    14
    Prepared Statement of Phillip R. Herr........................    15
        Attachment, Highlights of GAO-13-713T....................    19
Transportation Infrastructure: Limited Improvement in Bridge 
  Conditions Over the Past Decade, but Financial Challenges 
  Remain.........................................................    19
Process of Rehabilitation........................................    20
Government Intervention..........................................    20
Fracture-Critical Bridges........................................    22
Ensuring Safety of Bridges.......................................    22
Highway Trust Fund Solvency......................................    23
Transportation Funding Issues....................................    24
TIFIA Program....................................................    24
Project Delivery Deadlines.......................................    26
Environmental Compliance Delay...................................    27
Cutting Delivery Time............................................    28
Columbia River Crossing Project..................................    30
Long-Term Infrastructure Investment Priorities...................    31
Bridge Inspection Procedures.....................................    32
Addressing Critical Corridors....................................    32
Departmental Approach............................................    33
MAP-21 Transition Challenges.....................................    33
Oversize Load Permits............................................    35
New Technologies To Improve Safety...............................    36
Additional Committee Questions...................................    36
Questions Submitted to Hon. Polly Trottenberg....................    36
Questions Submitted by Senator Patty Murray......................    36
Questions Submitted by Senator Richard J. Durbin.................    37
Highway Public-Private Partnerships..............................    37
Highway Public-Private Partnerships and Excess Toll Revenue......    38
Non-Compete Clauses..............................................    39
Question Submitted by Senator Tim Johnson........................    39
Questions Submitted by Senator Mark Kirk.........................    40
Questions Submitted to Phillip R. Herr...........................    42
Questions Submitted by Senator Richard J. Durbin.................    42


CRUMBLING INFRASTRUCTURE: EXAMINING THE CHALLENGES OF OUR OUTDATED AND 
                   OVERBURDENED HIGHWAYS AND BRIDGES

                              ----------                              


                        THURSDAY, JUNE 13, 2013

                           U.S. Senate,    
 Subcommittee on Transportation and Housing
       and Urban Development, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:19 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Patty Murray (chairman) presiding.
    Present: Senators Murray, Collins, and Boozman.


               opening statement of senator patty murray


    Senator Murray. This subcommittee will come to order. And 
today we are going to hear from three witnesses, two from the 
Department of Transportation, Polly Trottenberg, the Under 
Secretary for Policy, and Victor Mendez, Administrator of the 
Federal Highway Administration. And our third witness is here 
from the Government Accountability Office (GAO), Phil Herr, 
Managing Director of Physical Infrastructure Issues.
    Before we get started, I just want to mention that I just 
got off the phone a bit ago with Secretary Ray LaHood. He had 
some great news from my State and told me that the Department 
of Transportation is releasing the rest of the emergency funds 
needed to repair the Skagit River Bridge. Obviously, this is a 
huge help to the State of Washington as we have been going 
through this nightmare, knowing that the Federal Government is 
at our back and they are going to be there to fund this.
    So we owe a great deal of gratitude to him and all of the 
Department for moving that along.
    With that, I want to welcome all of our witnesses. Thank 
you all for being here this morning. Each of these witnesses 
today can speak to the importance of investing in our 
infrastructure. They know these investments ensure our safety 
and the safety of our families, and they are well aware that 
investments in infrastructure are fundamental to improving our 
economy and increasing our economic competitiveness.
    Unfortunately, I know all too well what happens when our 
infrastructure fails. A few weeks ago, in my home State I saw 
firsthand the devastation that was caused when an entire 
section of Interstate 5 collapsed into the Skagit River. And 
you can see behind me, that's the main highway that goes 
through Washington State, I-5 corridor. And unfortunately, this 
is the kind of disaster we can expect to happen more often when 
our roads and bridges fall into disrepair.
    It certainly should be the wakeup call that we need to 
invest in repairing and rebuilding our aging roads, bridges, 
and highways. Thankfully, in this tragedy no one was critically 
injured, and work has now begun on the temporary and long-term 
repair. As I said, the Secretary announced this morning that 
the Federal Government will do the reimbursement, which we're 
grateful for.
    But I can tell you that I've firsthand seen that the local 
economy and small businesses and the livelihoods of a lot of 
families has been seriously disrupted without this very 
critical artery open for travel.
    In the United States, we have built an incredible 
transportation system. Our highways, our railroads, our transit 
systems connect people across towns and across the country. 
Literally, they keep families together. They connect workers to 
their jobs. They create a productive environment for American 
businesses to grow over the long term.
    But we can't take our transportation infrastructure for 
granted, because like everything else, it doesn't last forever. 
We've got to invest in the infrastructure we have built by 
repairing the damage that has occurred over decades, replacing 
the infrastructure that is outdated and beyond repair, and 
expanding capacity where it is needed to support a growing 
population and economy.
    Our families want assurances that the roads and bridges 
that they drive on are safe. And our communities need a 
reliable infrastructure to thrive and grow. For more than a 
generation, there was bipartisan agreement on the need for 
smart infrastructure investment. Sometimes, I worry that 
bipartisan consensus is now eroding. Recently, we have seen 
more and more lawmakers here in Washington, DC, who have 
focused on the shrinking short-term budget, regardless of its 
impact on jobs and economic growth, which has led to attempts 
that have been too often successful to really choke off the 
investments today that will make such a difference down the 
line.
    The fact is that if we slash our investments in 
infrastructure, like our roads and our bridges, we aren't 
really saving any money at all. We are actually making things 
worse. We're stifling economic growth. We're putting public 
safety at risk. And congestion is taxing families' time with 
painfully long commutes and causing health-threatening 
pollution. Roads are eventually going to need to be fixed. 
Bridges will have to be strengthened before they collapse. And 
waiting will only make the work more expensive and more 
difficult when it eventually has to be done.
    So, what happens in the meantime? When a bridge 
deteriorates at some point, it's no longer safe for heavier 
traffic, such as emergency vehicles or large trucks, and 
eventually has to be closed to traffic altogether. And when 
roads are filled with potholes, it makes the traffic worse and 
it makes driving more dangerous.
    So our families are less safe and our businesses can't move 
goods as quickly all because of short-term cuts. It's 
shortsighted and doesn't make sense. We have to remember: if we 
don't make investments now, we'll be stuck with a much bigger 
bill down the road.
    The American Society of Civil Engineers recently released 
its latest report card for America's infrastructure. Our 
country got a D+. More than 70,000 of our bridges across the 
country have been deemed structurally deficient. And the 
average age of a typical American bridge is 42 years. We are 
not keeping up with repairs; we haven't for years, and much 
less accounting for the growth of our country's population.
    This is an area where we see agreement today from the U.S. 
Chamber of Commerce, major labor groups like AFL-CIO, and 
economists and policy experts across the political spectrum. 
They all recognize that investing in infrastructure creates 
jobs today; it makes our families safer and lays down a strong 
foundation for strong economic growth.
    We're going to be hearing more about the importance of 
transportation infrastructure investments from our witnesses 
today. But this is a clear case where investment cuts or short-
term budget deficit look better on paper, but cost us more in 
the long run and make other deficits worse, in this case our 
infrastructure deficit.
    In the case of the Skagit Bridge collapse, we were very 
lucky that the damage wasn't worse. By this fall, Washington 
State expects to be finished with the repairs, returning 
traffic to normal. But until then, in the busy summer season, 
commuters and families traveling on their vacations can expect 
to encounter delays when traveling that part of the interstate.
    I talked to a young woman last week who had a 10-minute 
commute to her job a few weeks ago. Today it's well over 2 
hours because she has to go around. Local businesses are 
continuing to feel the impact of the bridge collapse, and 
businesses far and wide that rely on Interstate 5 to move goods 
are going to find it takes a lot longer to get their products 
to customers.
    This collapse illustrates just how much we rely on our 
roads and bridges, and I look forward to hearing the 
perspective of our two witnesses today. Based on their 
leadership and experience at the Department of Transportation, 
they can help us understand the current condition of our 
Nation's infrastructure and how much additional investment it 
requires. I hope to hear from them what these conditions mean 
for public safety and the economic competitiveness of our 
communities. I'm also interested in having a conversation about 
how recent policy changes will affect our investments.
    MAP-21, the most recent highway authorization law, included 
new requirements for State departments of transportation to 
develop performance targets and put together plans to explain 
how they are going to reach those targets. It also consolidated 
many of our highway programs so there's no longer a dedicated 
source of funding for bridge projects.
    These policy changes were meant to improve investment 
decisions and grant States more flexibility. But when there are 
limited resources, as we experienced today, how these decisions 
are actually made is critical. I want to hear how DOT is 
implementing these new provisions and how our States are 
responding.
    I'm particularly interested in understanding how States 
prioritize the projects that they fund. This is especially 
important when you look at a bridge where even if the 
likelihood of failure is low, the result can be catastrophic. 
What tools are available to States to help them make these 
kinds of decisions? And I want to hear about how the Department 
of Transportation is managing its relationships with our State 
and local governments.


                           prepared statement


    Our transportation system requires collaboration among all 
levels of government. It is a shared responsibility, as we have 
recently seen, as we've worked together on the Skagit River 
Bridge. And we have to make sure that safety is everyone's top 
priority. So I really appreciate our witnesses' being here. I 
look forward to this discussion.
    [The statement follows:]
               Prepared Statement of Senator Patty Murray
    The subcommittee will come to order.
    Today, we will hear testimony from three witnesses. Two from the 
Department of Transportation (DOT):
  --Polly Trottenberg, the Undersecretary for Policy; and
  --Victor Mendez, Administrator of the Federal Highway Administration.
And our third witness is here from the Government Accountability 
Office:
  --Phil Herr, Director of Physical Infrastructure Issues.
    I want to welcome all of our witnesses, and thank you for being 
here this morning. Each of these witnesses can speak to the importance 
of investing in our infrastructure. They know that these investments:
  --ensure our safety; and
  --the safety of our families.
And they're well aware that investments in infrastructure are 
fundamental to:
  --improving our economy; and
  --increasing our economic competitiveness.
    Unfortunately, I know what happens when our infrastructure fails. 
Last month, in my home State, I saw firsthand the devastation caused 
when an entire section of Interstate 5 collapsed into the Skagit River. 
Unfortunately, this is the kind of disaster we can expect to happen 
more often when our roads and bridges fall into disrepair. And it 
should certainly be a wake-up call that we need to invest in repairing 
and rebuilding our aging roads, bridges, and highways.
    Thankfully no one was seriously injured in the Skagit bridge 
collapse, and work has already begun on a temporary and long-term 
repair. But the local economy, small businesses and the livelihoods of 
families are seriously disrupted without this critical artery being 
open for travel.
    In the United States, we have built an incredible transportation 
system. Our highways, railroads and transit systems connect people 
across town and across the country. They keep families together, 
connect workers to jobs, and create a productive environment for 
American businesses to grow over the long term. But we cannot take our 
transportation infrastructure for granted. Like everything else, it 
does not last forever.
    We need to reinvest in the infrastructure we have built by:
  --repairing the damage that has occurred over decades;
  --replacing the infrastructure that is outdated and beyond repair; 
        and
  --expanding capacity where it is needed to support a growing 
        population and economy.
    Our families want assurances that the roads and bridges they drive 
on are safe, and our communities need a reliable infrastructure to 
thrive and grow.
    For more than a generation, there was a bipartisan agreement on the 
need for smart infrastructure investment. But that bipartisan consensus 
seems to have eroded. Recently, more and more lawmakers here in 
Washington, DC, have focused on shrinking short-term budgets, 
regardless of the impact on jobs and economic growth. This has led to 
attempts, too often successful, to choke off the investments today that 
could make a real difference down the line. The fact is that if we 
slash our investments in infrastructure like roads and bridges, we 
aren't really saving money at all.
    We are making things worse.
    We are stifling economic growth, we are putting public safety at 
risk, and congestion is taxing families' time with painfully long 
commutes and causing health-threatening pollution.
    Roads are going to need to be fixed eventually, bridges will need 
to be strengthened before they collapse, and waiting will only make the 
work more expensive and more difficult when we eventually do it.
    And what will happen in the meantime?
    When a bridge deteriorates, at some point it is no longer safe for 
heavier traffic such as emergency vehicles or large trucks. Eventually, 
it has to be closed to traffic altogether. When roads fill with 
potholes it makes traffic worse and driving more dangerous.
    So our families are less safe, our businesses can't move their 
goods as quickly, all because of short-term cuts.
    It's shortsighted and it just doesn't make sense. We have to 
remember that if we don't make investments now, we'll be stuck with a 
much bigger bill down the road.
    The American Society of Civil Engineers recently released its 
latest Report card for America's Infrastructure, and our country got a 
D+. More than 70,000 of our bridges across the country have been deemed 
``structurally deficient,'' and the average age of the typical American 
bridge is 42 years. We're not keeping up with the repairs, and haven't 
for years, much less accounting for the growth of our country's 
population. This is an area where you see agreement from:
  --the U.S. Chamber of Commerce;
  --major labor groups like the AFL-CIO; and
  --economists and policy experts across the political spectrum.
    They all recognize that investing in infrastructure creates jobs 
today, makes our families safer, and lays down a strong foundation for 
long-term economic growth.
    We are going to be hearing more about the importance of 
transportation infrastructure investments from our witnesses.
    But this is a clear case where investment cuts make our short-term 
budget deficit look better on paper, but cost us more in the long run, 
and make other deficits worse, in this case, our infrastructure 
deficit.
    In the case of the Skagit bridge collapse, we were very lucky that 
the damage was not worse. By the fall, Washington State expects to be 
finished with repairs, returning traffic to normal. And I'm continuing 
to work with the Department to make sure we're reimbursing Washington 
State for eligible repairs. But until then, commuters and families 
traveling on their vacations can expect to encounter delays when 
traveling that part of the interstate.
    Local businesses continue to feel the impact of the bridge 
collapse, and businesses far and wide that rely on Interstate 5 to move 
goods will find it takes longer for their products to reach customers.
    The collapse illustrates just how much we rely on our roads and 
bridges.
    I look forward to hearing the perspective of our two witnesses 
today. Based on their leadership and experience at the Department of 
Transportation, they can help us understand the current condition of 
our Nation's infrastructure and how much additional investment it 
requires. I hope to hear from them what these conditions mean for 
public safety and the economic competitiveness of our communities.
    I am also interested in having a conversation about how recent 
policy changes will affect our investments.
    MAP-21, the most recent highway authorization law, included new 
requirements for State departments of transportation to develop 
performance targets and put together plans to explain how they will 
reach those targets. It also consolidated many of the highway programs, 
so that there is no longer a dedicated source of funding for bridge 
projects.
    These policy changes were meant to improve investment decisions and 
grant States more flexibility. But when there are limited resources, as 
we experience today, how these decisions are actually made is critical.
    I want to hear about how DOT is implementing these new provisions, 
and how States are responding. I am particularly interested in 
understanding how States prioritize the projects they fund. This is 
especially important when you look at a bridge, where even if the 
likelihood of a failure is low, the result can be catastrophic. What 
tools are available to States to help them make these kinds of 
decisions?
    And I want to hear about how the Department of Transportation is 
managing its relationships with State and local governments. Our 
transportation system requires collaboration among all levels of 
government. It's a shared responsibility, one in which ensuring safety 
is everyone's top priority.
    I look forward to our discussion today.
    With that, I now turn it over to my partner, Senator Collins, for 
her opening statement.

    Senator Murray. And I want to recognize my ranking member, 
Senator Susan Collins, who has just been a leader and a 
forward-looking Republican counterpart who understands this as 
much as I do. And I really appreciate your work on this. Thank 
you.

                 STATEMENT OF SENATOR SUSAN M. COLLINS

    Senator Collins. Thank you very much, Chairman Murray. I 
want to join you in welcoming our witnesses. And I very much 
appreciate your scheduling this hearing so that we can discuss 
in very concrete terms, no pun intended, the needs of our 
Nation's crumbling infrastructure.
    The terrifying bridge collapse that occurred in Senator 
Murray's State just 3 weeks ago once again highlights the 
importance of maintaining our Nation's highways and bridges. 
Our national highway system contains too much infrastructure 
that is now well beyond its useful life. Some bridges are more 
than 100 years old. Many are unable to accommodate today's 
traffic volumes.
    In fact, one in nine of the Nation's bridges are rated as 
structurally deficient, and the average age of our Nation's 
more than 600,000 bridges is 42 years old. The Federal Highway 
Administration (FHWA) estimates that we must invest more than 
$1 billion at all levels of government each year just to 
maintain our highways and bridges over the next 15 years. 
Improving the system to meet future demands will require $170 
billion annually.
    This will prove extremely difficult, given that the 
revenues collected for the Highway Trust Fund already do not 
support the current level of Federal spending.
    The math is clear: The trust fund collected $40 billion in 
revenue last year, but spent close to $50 billion. This is not 
a new problem. There has been a shortfall every year for the 
past 5 years. By the end of next year, Congress will have 
transferred nearly $54 billion in general funds into the 
Highway Trust Fund in order to ensure its solvency. In order 
for States and localities to plan for and build long-term 
projects, they must have guaranteed funding to support the 
critical infrastructure investments.
    Transportation, as Chairman Murray has pointed out, is one 
of the largest sectors of our economy, representing nearly 10 
percent of the Nation's gross domestic product (GDP) and is one 
of the largest generators of high-paying jobs. Improving the 
efficiency and reliability of the Nation's transportation 
system is vital to the movement of people and freight, yet 
every State has a backlog of transportation needs.
    Maine's roads and bridges are among the worst in the 
Nation's rural transportation system. According to the FHWA, 32 
percent of Maine's bridges are deficient, which is more than 
the national average of 25 percent. In fact, there are nearly 
800 deficient bridges in my State. The Maine Department of 
Transportation estimates that its annual required investment to 
maintain good repair for our highways and bridges would cost 
$355 million, which is $110 million above the current level.
    Senator Murray referred to the American Society of Civil 
Engineers, which puts out a report card evaluating each State's 
infrastructure. And I've studied the one for my State. Overall 
for infrastructure, which goes beyond transportation, Maine 
receives a grade of C-. It is notable that our roads receive a 
grade of a D. And the society indicates that Maine motorists 
spend an average of $299 extra per year in vehicle operating 
costs because of the poor condition of many of our roads. Our 
bridges, similarly, receive a C-.
    Eventually, the lack of infrastructure funds leads to 
bridges and roads that are simply unsafe for travel by many 
vehicles. For example, the bridge displayed here is used to 
connect Lebanon, Maine, and Milton, New Hampshire. And as you 
can see, it has been completely closed, thus severing the link 
between those two towns via this bridge. It was deemed unsafe 
and forced to be closed.
    The fact is that virtually every entrance into the State of 
Maine is deteriorating and requires substantial investment. And 
when repairs are put off to the last minute, State departments 
of transportation are forced to spend far more time and 
resources than would have been necessary if they were repaired 
or replaced at an earlier stage.
    Now, clearly, Maine is not unique in having these problems, 
which affect not only the traveling public, but also the local 
and State economy as well.
    This hearing brings much-needed attention to our outdated 
and overburdened highways and bridges. Now, the transportation 
bill that we passed last year, MAP-21, was a step in the right 
direction. But so much more needs to be done. And that's why I 
am a strong supporter of the Transportation Investment 
Generating Economic Recovery (TIGER) Grants Program.
    I have supported the Maine DOT's successful efforts to 
obtain funding to replace the Memorial Bridge linking Maine and 
New Hampshire, the bridge between two rural communities, 
Richmond and Dresden, and the Martin Memorial Bridge in 
Rumford. These bridges were long past their expected lives and 
needed replacement, like so many other bridges not only in 
Maine, but across the Nation.
    It's clear that additional investments are necessary. The 
President has requested $50 billion in immediate transportation 
investments to spur economic investment and rebuild America. 
But I must say that I was disappointed that the President's 
plan is not supported by a serious proposal to finance it.
    I so share the administration's belief that investment in 
transportation is critical to the health of our economy and to 
our economic recovery. Such investments create jobs, provide 
lasting assets, move commerce, and establish the foundation of 
future growth. But clearly, in these difficult fiscal times, 
it's going to be a challenge for us to find the funds necessary 
for these investments.

                           PREPARED STATEMENT

    But as our chairman said, we need to think about not only 
the extremely troubling deficit that we have overall in our 
Federal budget, but also our deficit in investing in 
transportation, as well. Thank you, Madam Chairman.
    [The statement follows:]
             Prepared Statement of Senator Susan M. Collins
    Thank you, Chairman Murray. Welcome, Under Secretary Trottenberg, 
Administrator Mendez, and Mr. Herr. I appreciate your testifying before 
us today as we discuss the needs for our Nation's crumbling 
infrastructure.
    As the Chairman mentioned, we are here today, in part, due to the 
horrific Interstate bridge collapse that occurred in Washington just 3 
weeks ago. Fortunately, no one was killed, but this incident once again 
highlights the importance of maintaining our Nation's highways and 
bridges.
    Our National Highway system contains infrastructure that is now 
well over its useful life. Some bridges are over 100 years old, and 
many are unable to accommodate today's traffic volumes. In fact, one in 
nine of the Nation's bridges are rated as structurally deficient, and 
the average age of the Nation's 607,000 bridges is 42 years old.
    The Federal Highway Administration (FHWA) estimates that we must 
invest more than $101 billion at all levels of government each year 
just to maintain our highways and bridges over the next 15 years. 
Improving the system to meet future demands will require $170 billion 
annually. This will prove difficult given that revenues collected for 
the Highway Trust Fund already do not support the current level of 
Federal spending.
    The math is clear: the Trust Fund collected $40 billion in revenue 
last year, but spent close to $50 billion. This is not a new problem; 
there has been a shortfall every year for the past 5 years. By the end 
of next year, Congress will have transferred nearly $54 billion in 
General Funds into the Highway Trust Fund in order to ensure its 
solvency. In order for States and localities to plan for and build 
long-term projects, they must have guaranteed funding to support the 
critical infrastructure investments.
    Transportation is one of the largest sectors of the U.S. economy, 
representing nearly 10 percent of the Nation's GDP, and is one of the 
largest generators of high-paying jobs. Improving the efficiency and 
reliability of the Nation's transportation system is vital to the 
movement of freight and people, yet every State has a backlog of 
transportation needs.
    Maine's roads and bridges are among the worst in the Nation's rural 
transportation system. According to the FHWA, 32 percent of Maine's 
bridges are deficient, which is more than the national average of 25 
percent. In fact, there are nearly 800 deficient bridges in Maine. 
Maine's Department of Transportation (DOT) estimates that its annual 
required investment to maintain good repair for our highways and 
bridges would cost $355 million, which is $110 million above its 
current level.
    Eventually, the lack of infrastructure funds leads to bridges that 
are simply unsafe for travel by many vehicles. For example, the bridge 
displayed here used to connect Lebanon, Maine, and Milton, New 
Hampshire. As a result of limited funding, this bridge was deemed 
unsafe and forced to be closed. Virtually every entrance into Maine is 
deteriorating and requires substantial investment. And when repairs are 
put off to the last-minute, State DOTs are forced to expend far more 
time and resources to maintain them. Clearly, Maine is not unique in 
having these problems which affect not only the traveling public, but 
also the local and State economy as well.
    This hearing brings much needed attention to our outdated and 
overburdened highways and bridges. The Moving Ahead for Progress in the 
21st Century Act (MAP-21) was a step in the right direction providing 
reforms designed to simplify the program structure. It also improved 
upon project delivery to bring the benefits of highway and bridge 
investments to the public sooner. An important component of MAP-21 was 
expanding innovative financing programs, such as the Transportation 
Infrastructure Finance and Innovation Act (TIFIA). It is programs like 
TIFIA that produce a greater return for taxpayers and encourage private 
sector investment in our transportation system.
    In addition to supporting TIFIA, I continue to advocate for the 
Transportation Investment Generating Economic Recovery (TIGER) program. 
I have supported Maine DOT's successful efforts to obtaining funding to 
replace the Memorial Bridge linking Maine and New Hampshire, the bridge 
between Richmond and Dresden, and the Martin Memorial Bridge in 
Rumford. These bridges were past their expected lives and needed 
replacement, like so many other bridges across the Nation.
    It is clear that additional investments are necessary. While the 
President has requested $50 billion in immediate transportation 
investments to spur economic investment and rebuild America, I was 
disappointed that this was not supported with a serious funding 
proposal.
    I share the administration's belief that investment in 
transportation is critical to our economy. Such investments create 
jobs, provide lasting assets, move commerce and establish the 
foundation for future growth. But we must balance this commitment with 
other pressing needs, and it is equally important to our economic 
future that we rein in Federal spending and keep our national debt 
under control. We must address our skyrocketing national debt, which is 
rapidly approaching $17 trillion.
    These are all challenging issues that require Congress and the 
administration to work together to find solutions. I appreciate the 
leadership at the Department of Transportation and look forward to 
continuing to work together with you and the Government Accountability 
Office.

    Senator Murray. Thank you very much.
    With that, we're going to turn to our witnesses. We'll 
first hear from the Department of Transportation, Secretary 
Trottenberg. And then we will turn to Mr. Herr from the GAO. 
Thank you.
STATEMENT OF HON. POLLY TROTTENBERG, UNDER SECRETARY 
            FOR POLICY, DEPARTMENT OF TRANSPORTATION
ACCOMPANIED BY HON. VICTOR MENDEZ, ADMINSTRATOR, FEDERAL HIGHWAY 
            ADMINISTRATION, DEPARTMENT OF TRANSPORTATION
    Ms. Trottenberg. Chairman Murray, Ranking Member Collins, 
thank you for granting me and Administrator Mendez the 
opportunity to appear before you today on behalf of the Obama 
administration to discuss our Nation's transportation 
infrastructure challenges.
    The Skagit River Bridge collapse has clearly prompted a 
necessary conversation about the current state of our 
infrastructure, and, Chairman Murray, as you've noted, 
thankfully, the collapse did not cause any loss of life or 
serious injuries, but clearly is going to continue to have a 
major effect on the mobility and economic productivity of the 
region.
    We are proud that the Department was able to act quickly to 
help Washington State. Within hours of the collapse, Federal 
Highway engineers were on site. We were able to provide $1 
million in emergency funds right away. You've talked to the 
Secretary; we'll be continuing to support the State's efforts 
to replace the bridge.
    The Department will continue to stand by Washington State. 
And Senator Murray, we want to thank you and the delegation for 
all your leadership.
    Despite the I-5 incident, the overall condition of our 
Nation's highways and bridges has improved a bit in recent 
years as a result of significant investment, improved project 
design and construction, and better condition monitoring. The 
percentage of bridges classified as deficient has dropped 
slightly in recent years. But there is still an enormous 
backlog of over 150,000 deficient bridges, with an estimated 
replacement cost of $240 billion, clearly outstripping the 
available resources at all levels of government.
    Over the past few years, the Department has received 
hundreds of requests through the TIGER program and our 
Transportation Infrastructure Finance and Innovation Act 
(TIFIA) loan program to repair or replace obsolete and 
deficient bridges, clearly demonstrating a big demand. As a 
result, DOT has awarded 19 TIGER grants for bridge projects 
totaling $326 million. Senator Collins mentioned the bridges in 
Maine and also the Milton-Madison Bridge in Kentucky, South 
Park Bridge in Seattle. We've done a lot of terrific bridge 
programs.
    We've also seen a lot of interest in the TIFIA program. 
We've heard from the Tappan Zee Bridge in New York and the 
Gerald Desmond Bridge in Los Angeles, a critical freight 
connection to the ports of Los Angeles and Long Beach.
    TIGER and TIFIA are helping to address the need, but 
clearly there is far more demand for these programs than we 
have funds available. That raises the difficult question of 
what is the right level of public investment in our Nation's 
transportation system to ensure continued safety, foster 
economic growth, and increase mobility choices for our citizens 
and businesses. How can we at the Federal, State, and local 
level ensure that we're building, maintaining, and operating 
this system as safely, efficiently, and cost-effectively as 
possible?
    At the Department, we are very focused on the looming 
funding crisis that Senator Collins mentioned in our surface 
transportation programs and how we can wring more productivity 
and efficiency out of our existing system and continue to 
improve its performance. We are grateful for MAP-21, which 
provided us with 2 years of stable funding, and we consider 
MAP-21's focus on performance one of the most exciting and 
challenging areas of the legislation. We're working with key 
stakeholders all over the country to develop performance 
measures in areas such as safety, pavement and bridge 
conditions, system performance, congestion, and freight.
    MAP-21 also focused on accelerating project delivery and 
built upon some of the groundbreaking work that Administrator 
Mendez has done at Federal Highways, with his transformational 
Every Day Counts initiative. For example, one of the things 
Every Day Counts has done is promulgate the greater use of 
innovative technologies like assembling bridges from 
prefabricated elements, as is being done with the I-5 bridge. 
These proven, more efficient technologies can build 
infrastructure faster for far less money, less disruption to 
the traveling public and businesses, and less impact on the 
environment.
    Thanks in large part to MAP-21 and to the TIGER program, 
we've also stepped up our efforts to work with States and 
localities to produce better economic analysis, including 
expanded use of asset management to ensure that every public 
dollar is well spent. But as the subcommittee knows and Senator 
Collins mentioned, MAP-21 is only a 2-year bill instead of the 
traditional 6-year bill, because we were unable to find further 
funding. The Highway Trust Fund will be nearly depleted at the 
end of the life of the bill. And we've been using general funds 
to keep the program going. This is clearly fiscally and 
politically unsustainable.
    In this time of severe budgetary challenges, we are going 
to need to find political consensus on how to sustainably fund 
surface transportation over the long term. The President has 
proposed using the savings from the military draw-downs in Iraq 
and Afghanistan as a source of funding and supports programs 
such as TIGER and TIFIA and an infrastructure bank that would 
help leverage additional public and private funds. Others have 
different proposals, and a number of States in this region and 
around the country have also started to achieve political 
consensus on new funding for critical transportation 
infrastructure.
    We know this is one of the many important issues that 
leaders on this subcommittee and throughout Congress will be 
grappling with in the months to come, and the administration 
looks forward to seeking a shared solution to sustainably fund 
surface transportation and keep our bridges, our roads, and our 
rails safe for the traveling public.

                           PREPARED STATEMENT

    Thank you for having us here today. And Administrator 
Mendez and I are happy to answer any questions you have.
    [The statement follows:]
              Prepared Statement of Hon. Polly Trottenberg
    Chairman Murray, Ranking Member Collins, and members of the 
subcommittee, thank you for the opportunity to appear before you today 
to discuss our Nation's transportation infrastructure challenges. With 
me is Victor Mendez, our Federal Highway Administrator.
    The I-5 Skagit River Bridge collapse has prompted a necessary 
conversation about the current state of our Nation's transportation 
infrastructure and how such incidents can be prevented in the future. 
Thankfully, the May 23 collapse did not cause any serious injuries or 
loss of life, but it has had, and will continue to have, a major effect 
on the region's mobility and economic productivity.
                        restoring infrastructure
    As Chairman Murray noted, the I-5 bridge is a vital transportation 
link for international commerce, carrying an estimated 71,000 vehicles 
each day, including commuters, between Seattle and Vancouver, British 
Columbia. As much as $14 billion in freight travels to and from Canada 
along this busy north-south corridor each year as well.
    While it is too early to calculate the full economic impact of the 
downed bridge, storm-related closures of I-5 in 2007 resulted in more 
than $47 million of lost economic output. Businesses in Mount Vernon 
and Burlington, communities adjacent to the bridge, are already 
reporting sales decreases of 50 to 80 percent since the bridge 
collapsed.
    According to the Burlington Chamber of Commerce, a local coffee 
shop typically teeming with customers now experiences hours without any 
business. One local, small bank has not opened a single account since 
the bridge collapsed. On the freight side, a large trucking company is 
rescheduling pickup and delivery times to accommodate congestion-
related delays at an estimated loss of $21,000 per week.
    The National Transportation Safety Board (NTSB) is taking the lead 
in the investigation, working with staff from our Federal Highway 
Administration's (FHWA) headquarters and Washington Division Office. 
Within hours of the bridge collapse, FHWA engineers from our Washington 
division were on-site to provide technical expertise to NTSB 
investigators. Additionally, FHWA Deputy Administrator Greg Nadeau 
visited the bridge site on May 28 and helped expedite a U.S. Army Corps 
of Engineers permit to quickly complete debris removal just days after 
the bridge collapse.
    I am proud that the Department acted quickly to minimize economic 
consequences by making both financial and staffing resources available 
to Washington State. We immediately provided $1 million in Emergency 
Relief program funds to help install a temporary bridge over the river 
and make permanent repairs.
    For the short term, Washington State DOT will put in place an 
innovative, prefabricated temporary bridge, expected to open next week. 
The bridge will be constrained in its use and capacity, with a reduced 
speed limit, and oversized vehicles will have to use a detour route.
    The construction of the permanent replacement span of the bridge 
will also use innovative methods. The permanent replacement span is 
expected to be fabricated on-site. When construction is complete, the 
temporary bridge will be removed and the new span will be moved into 
its permanent location. With FHWA's assistance, Washington State DOT 
expects to have the permanent repairs complete and the restored bridge 
open to traffic by October 2013.
    And I note that Washington State DOT is the first beneficiary of 
the Moving Ahead for Progress in the 21st Century Act's (MAP-21's) 
categorical exclusion expediting the delivery of critical 
transportation projects in emergencies. The Department will continue to 
stand by Washington State and provide any assistance needed until all 
repair efforts are completed and this key link in the Nation's highway 
network is fully operational again.
                     improving our nation's bridges
    Despite increased use, the condition of our Nation's highways and 
bridges has improved overall in recent years, as a result of new 
technology and techniques used in the design and construction of 
projects, as well as condition monitoring.
    With over 600,000 bridges, the percentage of bridges classified as 
deficient--meaning that they were either structurally deficient or 
functionally obsolete--dropped from slightly more than 30 percent in 
2001 to 26.5 percent in 2009.
    As bridge conditions improve, it is still critical to monitor the 
condition of the Nation's bridges and frequently assess the load-
carrying capacity of those bridges that are showing signs of 
deterioration. The Department's National Bridge Inspection program 
relies on Federal and State bridge inspectors every day to monitor 
bridge conditions and ensure critical safety issues are identified and 
remedied to protect the traveling public. Safety inspections are 
conducted at least once every 2 years on highway bridges that exceed 20 
feet in total length, and many bridges are inspected more frequently.
    One of the newer technologies aiding in bridge condition monitoring 
is the use of acoustic emission (AE) equipment. Some bridges are being 
fitted with the AE instruments that listen to the sounds that a bridge 
makes and can detect the sound energy produced when a crack occurs or 
if a crack expands. This information is transmitted back so that 
continuous bridge condition monitoring is possible.
    Despite the Department's rigorous oversight of bridges, a huge 
backlog of structurally deficient bridges remains. As of December 2012, 
bridges on the National Highway System (NHS) totaled 117,485, or about 
one-fifth of the 607,380 bridges inventoried nationwide. Of those NHS 
bridges, 5,237, or 4.5 percent, were considered structurally deficient. 
That represents a reduction of 1.4 percent from 2002, when 6,712 out of 
114,544, or 5.9 percent, of NHS bridges inventoried were structurally 
deficient.
    Over the past few years, the Department received hundreds of 
requests through the Transportation Investment Generating Economic 
Recovery (TIGER) and Transportation Infrastructure Finance and 
Innovation Act (TIFIA) programs to repair or replace obsolete and 
deficient bridges, which resulted in 19 TIGER awards totaling more than 
$326 million. For example, the Milton-Madison Bridge Replacement 
between Kentucky and Indiana restored an important link for the 
surrounding economically distressed communities that was estimated to 
have less than 10 years of serviceable life left. Similarly, the 
Muldraugh Bridge Replacement replaced two deteriorating freight rail 
bridges that reached the end of their useful life. In Washington, a $34 
million TIGER award helped King County repair the South Park Bridge 
that was closed to traffic due to its rapidly deteriorating condition.
    Several other nationally significant bridges approached the TIFIA 
program for credit assistance to replace and rebuild failing bridges. 
The New York Thruway Authority is currently negotiating for loan 
support to replace the Tappan Zee Bridge across the Hudson River. The 
Port of Long Beach is also looking to TIFIA to help reduce the cost of 
replacing the vital Gerald Desmond Bridge, which provides a critical 
freight connection to the port. These projects will help repair a few 
of the Nation's significant bridges, but there is far more demand for 
investment than we have funds available.
                         infrastructure debate
    The I-5 bridge collapse has spurred debate about the state of 
American transportation infrastructure. To me, the fundamental question 
is not so much whether our transportation infrastructure is crumbling 
and even collapsing, which fortunately only happens in fairly rare 
circumstances.
    Rather, what is the right level of public investment in our 
Nation's transportation system to ensure continued safety, foster 
economic growth, and increase mobility choices for our citizens and 
businesses? And how can we at the Federal, State, and local level 
ensure that we are building, maintaining and operating the system as 
efficiently and cost-effectively as possible?
    At DOT, we are very focused on the looming funding crisis for our 
surface transportation programs and on how we can wring more 
productivity and efficiency out of our existing system and continue to 
improve its performance.
    We are grateful that Congress passed MAP-21 last summer. After 10 
extensions of the previous law, MAP-21 provided 2 welcome years of 
stable funding--$105 billion--for our highway, transit and safety 
programs and a lot of good programmatic and policy reforms.
    We consider MAP-21's focus on performance one of the most exciting 
and challenging parts of the legislation. We are working with our 
stakeholders to develop performance measures in key areas such as 
safety, pavement and bridge condition, system performance, congestion 
and freight. Setting performance measures will help decisionmakers and 
the public identify cost-effective policies and investments needed to 
maintain and improve the national transportation system.
    MAP-21 also focused on accelerating project delivery and built upon 
the work that my colleague Administrator Mendez has led at FHWA with 
his Every Day Counts initiative. Every Day Counts was designed to 
further increase innovation and improve efficiency, effectiveness, and 
accountability in the planning, design, engineering, construction and 
financing of transportation projects.
    For example, Every Day Counts has promoted the greater use of 
technologies--like assembling bridges from prefabricated elements as is 
being done to rebuild the I-5 bridge--that allow critical 
infrastructure to be built faster, for less money, and with much less 
disruption to the traveling public and businesses and less impact on 
the environment.
    We are working with our sister agencies to reduce the Federal 
permitting review process timeline for project sponsors, generating 
tremendous savings of time and money. We are also implementing the 
President's directive to cut aggregate timelines for major 
infrastructure projects in half, while also improving outcomes for 
communities and the environment. We are likewise encouraging cost-
effective innovation and creative new approaches to construction, 
operations and project delivery.
    Thanks in large part to the TIGER discretionary grant program that 
this subcommittee has created and supported, and now MAP-21, DOT has 
greatly stepped up its efforts to work with States and localities to 
produce better economic analysis, including expanded use of asset 
management, to ensure that every public dollar is well spent.
    Repairing our existing infrastructure is a central component of 
President Obama's ``Fix-It-First'' program in the fiscal year 2014 
budget proposal, which would direct $40 billion toward reducing the 
backlog of deferred maintenance on highways, bridges, transit systems, 
and airports nationwide and put U.S. workers on the job, along with $10 
billion for innovative transportation investments.
    The President also proposed a Partnership to Rebuild America to 
attract private capital to upgrade what our businesses need most: 
efficient roads, rails, mass transit systems, waterways, and ports to 
move people and goods, and safe and modern energy and 
telecommunications systems.
        meeting future demand and funding sustainable investment
    But as this committee knows, MAP-21 is only a 2-year authorization, 
instead of the traditional 6-year authorization, because that was all 
the funding available.
    By the end of 2014, the Highway Trust Fund will be nearly depleted 
and Congress will have transferred nearly $54 billion in General 
taxpayer Funds into the Highway Trust Fund to keep the program afloat. 
We will need an additional $85 billion in General Funds over the next 6 
years just to keep the program at current levels, let alone grow it. 
This is clearly fiscally and politically unsustainable.
    Meanwhile the demands on our Nation's transportation infrastructure 
will only increase. By 2050, the U.S. population is expected to grow by 
100 million people, with many of them projected to live in already 
congested metropolitan areas.
    In this time of severe budgetary challenges, ultimately we need to 
find political consensus on how to sustainably fund surface 
transportation over the long term. It will not be easy.
    The President has proposed using the savings from the military 
drawdowns in Iraq and Afghanistan as a source of funding for 
transportation, and supports programs such as TIFIA, TIGER and an 
infrastructure bank that would help leverage additional public and 
private funds for transportation.
    Others may have different proposals, and many States, including 
Virginia, Maryland, Wyoming, New Hampshire, and Pennsylvania have 
recently achieved political consensus on new funding for critical 
transportation infrastructure.
    I know this is one of the many important issues that the leaders on 
this committee and throughout Congress will be grappling with in the 
months to come. The administration looks forward to seeking a shared 
solution to sustainably fund surface transportation so that we can 
maintain our economic competitiveness and States and localities can 
plan for and build long-term projects.
    Senator Murray, I commend your leadership on addressing our 
transportation challenges. I thank you and this subcommittee for your 
fiscal year 2014 budget proposal, which seeks to provide the necessary 
resources to build and maintain our Nation's transportation system.
    The President has called on us to create an America built to last. 
We have a long way to go to upgrade our Nation's highways, bridges, and 
transit systems, but we owe it to future generations to make it happen.
    Thank you, and Administrator Mendez and I are happy to answer any 
questions you may have.

    Senator Murray. Thank you very much to both of you.
    Mr. Herr.
STATEMENT OF PHILLIP R. HERR, DIRECTOR, PHYSICAL 
            INFRASTRUCTURE ISSUES, GOVERNMENT 
            ACCOUNTABILITY OFFICE
    Mr. Herr. Chairman Murray and Ranking Member Collins, I'm 
pleased to discuss GAO's work on the Nation's bridges. Surface 
transportation is critical to the economy and affects the daily 
lives of most Americans. The collapse of the section of the 
Interstate 5 bridge in Washington reminds us of the economic 
impact that a bridge failure can have.
    Today I will discuss the current state of the Nation's 
bridges and Federal funding programs, and recent changes to 
surface transportation programs for MAP-21, along with key 
financial challenges.
    Turning first to bridge conditions, while there's been 
limited improvement over the past decade, a substantial number 
remain in poor condition, as we've discussed. Of the 
approximately 607,000 bridges on the Nation's roadways in 2012, 
1 in 4 was classified as deficient. Since 2002, the number of 
bridges has increased by about 16,000, and the number of 
deficient bridges has decreased by about 23,000.
    The impact of the Federal investment in bridges is 
difficult to measure. While FHWA tracks a portion of bridge 
spending, the data do not include State spending on bridges 
located on local roads and most local government spending. The 
lack of comprehensive information on State and local bridge 
spending makes it impossible to determine the impact of Federal 
bridge investments. This is important not only to understand 
the outcomes of past spending, but also to determine how to 
sensibly invest future resources.
    Turning to more recent changes to surface transportation 
programs, there has been progress in clarifying Federal roles 
and linking programs to performance. In 2008, we recommended 
that the Federal Bridge Program needed clearer goals and 
performance measures. MAP-21 moved transportation programs 
toward a more performance-based highway and bridge program, as 
well as established a framework to address freight challenges. 
However, the two key programs will fund bridge construction, 
replacement, and rehabilitation and place bridge projects in 
competition with other eligible projects and activities such as 
road needs.
    Our prior work recommended the DOT incorporate best tools 
and practices, some of which were discussed today, in the 
Federal Bridge Program. While MAP-21 referenced performance-
based bridge management systems to assist States in making 
investments, it did not require States to use them.
    MAP-21 requires the Secretary of Transportation to consult 
with States and others to establish performance measures and 
goals and report their progress. MAP-21 also links funding to 
performance by requiring States to take corrective action 
should progress toward targets be insufficient and to spend a 
portion of their annual Federal funding to improve bridges 
should conditions fall below minimum standards.
    While sharpening the Federal focus to the 220,000-mile 
national highway system is important, calls for increased 
investments in bridges and other aging infrastructure come when 
traditional funding sources such as the gas tax have lost 
purchasing power. As the Nation's bridges built in the 1960s 
and early 1970s age, the number in need of repair or 
rehabilitation is increasing. Additionally, some large-scale 
bridge projects, often the most traveled on the interstate, are 
too expensive to be implemented with Federal funds alone.
    Without agreement on a long-term plan for funding surface 
transportation, fiscal sustainability remains a challenge. In 
closing, it's important to emphasize that there's been progress 
in clarifying Federal goals and establishing a framework to 
link Federal surface transportation programs to performance. 
However, a long-term plan for funding surface transportation is 
needed as well.
    As we noted in our 2013 High-Risk update, continuing to 
augment the Highway Trust Fund with general revenues may not be 
sustainable given competing demands and the Federal 
Government's fiscal challenges. We believe a sustainable 
solution is based on balancing revenues to, and spending from, 
the Highway Trust Fund. Ultimately, major changes in 
transportation spending, revenues, or both will be needed to 
bring the two into balance.

                           PREPARED STATEMENT

    Chairman Murray, Ranking Member Collins, thank you. This 
concludes my prepared statement, and I'm happy to answer 
questions.
    [The statement follows:]
                 Prepared Statement of Phillip R. Herr
    Chairman Murray, Ranking Member Collins, and members of the 
subcommittee: Thank you for this opportunity to discuss GAO's work 
examining the Nation's highways and bridges. The surface transportation 
system is critical to the U.S. economy and affects the daily lives of 
most Americans, moving both people and freight. The May 23, 2013, 
collapse of a section of the Interstate 5 bridge over the Skagit River, 
north of Seattle, Washington, underscores the importance of maintaining 
the Nation's infrastructure and the economic impact that a bridge 
failure, such as this one, can have on a region. According to Federal 
Highway Administration (FHWA) information, the Skagit River Bridge is a 
major commercial route between the United States and Canada and serves 
an average of 71,000 vehicles per day. Commercial truck traffic 
comprises about 11 percent of these vehicles, transporting goods 
between the two countries. Overall, there are over 600,000 bridges in 
the U.S. surface transportation system. However, the system--including 
bridges--is under growing strain, and the cost to repair and upgrade it 
to meet current and future demands is estimated in the hundreds of 
billions.
    My testimony today describes: (1) the current condition of the 
Nation's bridges and effects of Federal funding for bridges and (2) a 
preliminary look at the recent changes to the surface transportation 
and bridge program made by the Moving Ahead for Progress in the 21st 
Century Act (MAP-21), along with key financial challenges. This 
statement is drawn from prior work that we completed from 2008 through 
2010 regarding surface transportation programs.\1\ The reports and 
testimonies cited in this statement contain more detailed explanations 
of the methods used to conduct our work. We conducted our work on these 
products in accordance with generally accepted government auditing 
standards. Those standards require that we plan and perform the audit 
to obtain sufficient, appropriate evidence to provide a reasonable 
basis for our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \1\ GAO, Highway Bridge Program: Condition of Nation's Bridges 
Shows Limited Improvement, but Further Actions Could Enhance the Impact 
of Federal Investment, GAO-10-930T (Washington, D.C.: July 21, 2010), 
and GAO, Highway Bridge Program: Clearer Goals and Performance Measures 
Needed for a More Focused and Sustainable Program, GAO-08-1043 
(Washington, D.C.: Sept. 10, 2008).
---------------------------------------------------------------------------
                               background
    Bridges vary substantially in their size and use, including daily 
traffic volumes. In 2012, there were 607,380 bridges in the United 
States, which carried the Nation's passenger car, truck, bus transit, 
and commercial vehicle traffic over waterways, highways, railways, and 
other road obstructions. Bridge ownership is fairly evenly split 
between States (48 percent) and local government agencies (50 percent). 
State agencies are responsible for 77 percent of the Nation's bridge 
deck area. The Federal Government owns less than 2 percent of the 
Nation's bridges, primarily on federally owned land.
    Bridge safety emerged as a high-priority issue in the United States 
in the 1960s, following the collapse of the Silver Bridge between Ohio 
and West Virginia, which killed 46 people. That collapse prompted 
national concerns about bridge condition and safety and highlighted the 
need for timely repair and replacement of bridges. Congress responded 
by establishing the National Bridge Inspection Program (NBIP) to ensure 
periodic safety inspection of bridges and the Highway Bridge Program 
was established to provide funding and assist States in replacing and 
rehabilitating bridges.
    The NBIP established the National Bridge Inspection Standards, 
which detail how bridge inspections are to be completed and with what 
frequency.\2\ After inspection, a bridge may be classified as deficient 
for one of two reasons: the bridge has one or more components in poor 
condition (classified as ``structurally deficient'') or the bridge has 
a poor configuration or design that may no longer be adequate for the 
traffic it serves (classified as ``functionally obsolete'').\3\ 
Structurally deficient bridges often require maintenance and repair to 
remain in service. In contrast, functionally obsolete bridges do not 
necessarily require repair to remain in service and therefore are 
unlikely to be State transportation officials' top priority for 
rehabilitation or replacement.\4\ Bridge sufficiency ratings are 
calculated using a formula that reflects structural adequacy, safety, 
serviceability, and relative importance. Based on an inspection, each 
bridge is assigned a sufficiency rating from a low of 0 to a high of 
100.\5\ For example, in the National Bridge Inventory, the Skagit River 
Bridge was classified as functionally obsolete with a sufficiency 
rating of 46. According to the Federal Highway Administration (FHWA), 
classifying a bridge as deficient does not necessarily mean that it is 
likely to collapse or that it is unsafe. If proper vehicle weight 
restrictions are posted and enforced, deficient bridges can continue to 
serve most traffic conditions. If a bridge is determined to be unsafe, 
it must be closed to traffic.\6\
---------------------------------------------------------------------------
    \2\ 23 C.F.R. part 650.
    \3\ During an inspection, bridge inspectors rate bridge components 
using a numerical system to describe the condition of the component. 
Using the data collected by State and local governments during bridge 
inspections, FHWA classifies bridges in two key ways, by determining 
whether bridges are not deficient or deficient and by calculating a 
sufficiency rating.
    \4\ Bridges are typically classified as functionally obsolete as a 
result of changing traffic demands or changes in design standards since 
construction and are not structurally unsound.
    \5\ FHWA assigns each bridge in the national bridge inventory a 
rating between 0 and 100, indicating its sufficiency to remain in 
service. A rating of 100 represents an entirely sufficient bridge, 
while a rating of 0 represents an entirely insufficient bridge. FHWA 
documents state that sufficiency ratings are not intended to be an 
accurate representation of priority for bridge replacement or 
rehabilitation projects.
    \6\ DOT, 2006 Status of the Nation's Highways, Bridges, and 
Transit: Conditions and Performance (Washington, D.C., Jan. 22, 2007).
---------------------------------------------------------------------------
    President Obama signed MAP-21 \7\ into law in July 2012, 
consolidating a number of existing highway programs, including the 
Highway Bridge Program. Bridge projects are now funded through the 
National Highway Performance Program (NHPP) or the Surface 
Transportation Program (STP). MAP-21 divides each State's total annual 
Federal-aid apportionment principally between NHPP (64 percent) and STP 
(30 percent).\8\ Estimated funding authorized under MAP-21 in fiscal 
year 2013 are over $21 billion for NHPP and about $10 billion for STP.
---------------------------------------------------------------------------
    \7\ Public Law 112-141. 126 Stat 405 (2012).
    \8\ Codified as positive law at 23 U.S.C. sections 104(b), 
119(d)(2).
---------------------------------------------------------------------------
Bridge Conditions Show Limited Improvement, but the Impact of Federal 
        Investment Is Difficult To Determine
    There has been limited improvement in bridge conditions in the past 
decade, but substantial numbers of bridges remain in poor condition. Of 
the 607,380 bridges on the Nation's roadways in 2012, 1-in-4 was 
classified as deficient. Data indicate that the total number of 
deficient bridges decreased since 2002, even as the total number of 
bridges increased. From 2002 to 2012, the number of bridges increased 
from 591,243 to 607,380. During that same time period, the total number 
of deficient bridges decreased by 23,357. (See fig. 1.) In our prior 
work, we found that the average sufficiency rating of all bridges--
including both deficient and non-deficient bridges--also improved 
slightly. Specifically, the average sufficiency rating for all bridges 
increased from 75 to 79 on the sufficiency rating's 100-point scale 
from 1998 to 2007.\9\
---------------------------------------------------------------------------
    \9\ In that same period, the amount of bridge deck that is 
deficient increased by 39 million square feet, or 4 percent.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Our prior work has found that the impact of the Federal investment 
in bridges is difficult to measure.\10\ For example, while FHWA tracks 
a portion of bridge spending on a State-by-State basis, the data do not 
include (1) States' spending on bridges located on local roads and (2) 
most local governments' spending on bridges, thus making it difficult 
to determine the Federal contribution to overall bridge expenditures. 
This lack of comprehensive information on State and local spending 
makes it impossible to determine the impact of the Federal investment 
in bridges. Understanding the impact of the Federal investment is 
important not only to understand the outcomes of past spending but also 
to determine how to sensibly invest future Federal resources.
---------------------------------------------------------------------------
    \10\ GAO-08-1043.
---------------------------------------------------------------------------
Progress Has Been Made in Clarifying the Federal Government's Surface 
        Transportation Focus and Linking Programs to Performance 
        Measures, but Challenges Remain
    There has been progress in clarifying Federal goals and linking 
Federal surface transportation programs to performance. In 2008, we 
reported that the Federal bridge program needed clearer goals and 
performance measures to create a more focused and sustainable program. 
We recommended that the Department of Transportation (DOT) work with 
Congress to identify specific goals in the national interest. 
Subsequently, DOT worked with Congress which adopted provisions in MAP-
21, including provisions that move toward a more performance-based 
highway and transit program. MAP-21 also specified that NHPP funds may 
only support eligible projects--including bridge projects--on the 
National Highway System.\11\ However, for both NHPP and STP, funding 
for bridge construction, replacement, and rehabilitation projects is 
listed among a broader category of eligible highway projects and 
activities that must be identified in a State transportation plan. Our 
prior work had also recommended that DOT incorporate best tools and 
practices into the Federal bridge program. MAP-21 described the 
importance of using performance-based bridge management systems to 
assist States in making timely investments; however, it does not 
require States to do so.\12\
---------------------------------------------------------------------------
    \11\ The National Highway System is a 220,000-mile network of rural 
and urban roads serving major population centers, international border 
crossings, intermodal transportation facilities, and major travel 
destinations. It includes the Interstate System, the Strategic Highway 
Network, and others.
    \12\ A bridge management system is a system of formal procedures 
and methods for gathering and analyzing bridge data to predict future 
bridge conditions, estimate maintenance and improvement needs, 
determine optimal policies, and recommend projects and schedules within 
budget and policy constraints.
---------------------------------------------------------------------------
    MAP-21 also required the Secretary of Transportation, in 
consultation with States and others, to establish performance measures 
for bridge conditions, among other areas, and required States and other 
grantees to establish performance targets for those measures and to 
report their progress in achieving the targets.\13\ In addition, MAP-21 
links funding to performance by requiring States to take corrective 
action should progress toward their targets be insufficient and to 
spend a specified portion of their annual Federal funding to improve 
bridge conditions should conditions fall below minimum standards set by 
the Secretary.
---------------------------------------------------------------------------
    \13\ Performance measures are also required for areas such as 
pavement conditions, injuries and fatalities, and congestion.
---------------------------------------------------------------------------
    Although there has been progress in clarifying Federal goals and 
linking Federal surface transportation programs to performance, 
Congress and the administration need to agree on a long-term plan for 
funding surface transportation. As we noted in our 2013 High Risk 
Update related to financing the surface transportation system,\14\ 
continuing to fund a Highway Trust Fund shortfall through general 
revenues may not be sustainable given competing demands and the Federal 
Government's fiscal challenges.\15\ We believe a sustainable solution 
is based on balancing Highway Trust Fund revenues to and spending. New 
revenues from users can come only from taxes and fees. Ultimately major 
changes in transportation spending, revenues, or both, will be needed 
to bring the two into balance.
---------------------------------------------------------------------------
    \14\ GAO, High-Risk Series: An Update, GAO-13-283 (Washington, 
D.C.: February 2013).
    \15\ Most funding authorized under MAP-21 is drawn from the Highway 
Trust Fund.
---------------------------------------------------------------------------
    Calls for increased investments come at a time when traditional 
transportation funding sources are eroding. Funding is further 
complicated by the Federal Government's financial condition and fiscal 
outlook. Meanwhile, the Nation's inventory of bridges continues to age, 
including some considered to require costly, large-scale bridge 
projects. As many of the Nation's bridges built in the 1960s and 1970s 
age, the number in need of repair or rehabilitation is expected to 
increase.\16\ Additionally, in our previous work, some State officials 
explained that certain large-scale bridge projects--often the most 
traveled, urban bridges on interstate corridors--are too expensive to 
be implemented with bridge program funds alone.\17\ For example, 
Washington State DOT officials explained that costly ``mega 
projects''--those that have an estimated total cost greater than $500 
million--that emerge as top priorities through their prioritization 
process may be delayed by a lack of funds. Transportation officials in 
Washington State and other States we visited acknowledged that existing 
bridge mega projects could easily exhaust a State's entire Federal-aid 
apportionment for many years, potentially to the detriment of all other 
bridge needs in that State. Without agreement on a long-term plan for 
funding surface transportation, program fiscal sustainability remains a 
challenge.
---------------------------------------------------------------------------
    \16\ In our prior work, we reported that the average age of bridges 
in 2007 in the National Bridge Inventory was approximately 35 years, 
that the average age of bridges with a sufficiency rating of 80 or less 
was 39 years, and that the average age of bridges with a sufficiency 
rating less than 50 was 53 years. See GAO-08-1043.
    \17\ GAO-08-1043.
---------------------------------------------------------------------------
    Chairman Murray, Ranking Member Collins, and members of the 
subcommittee, this concludes my prepared statement. I would be happy to 
respond to any questions you may have.
                                 ______
                                 
                 Attachment, Highlights of GAO-13-713T
                     transportation infrastructure
Limited Improvement in Bridge Conditions Over the Past Decade, but 
        Financial Challenges Remain
            Why GAO Did This Study
    The May 23, 2013, collapse of a section of the Interstate 5 bridge 
over the Skagit River, north of Seattle, Washington, underscores the 
importance of maintaining the Nation's infrastructure and the economic 
impact that a bridge failure can have on a region. This testimony 
addresses (1) what is known about the current condition of the Nation's 
bridges and impact of Federal funding for bridges and (2) a preliminary 
look at recent changes to the surface transportation and bridge program 
made by the Moving Ahead for Progress in the 21st Century Act (MAP-21). 
The act consolidated a number of highway programs, including the former 
Highway Bridge Program. This testimony is based on prior Government 
Accountability Office (GAO) reports, updated with publicly available 
bridge data and information.
            What GAO Recommends
    GAO is not making any new recommendations. In 2008, GAO recommended 
that the Secretary of Transportation work with Congress to identify and 
define national goals for the Federal bridge program, develop and 
implement performance measures, identify and evaluate best tools and 
practices, and review and evaluate funding mechanisms to align funding 
with performance. GAO closed this recommendation as implemented based 
on the provisions contained in MAP-21.
            What GAO Found
    There has been limited improvement in bridge conditions in the past 
decade, but a substantial number of bridges remain in poor condition. 
Of the 607,380 bridges on the Nation's roadways in 2012, 1-in-4 was 
classified as deficient. Some are structurally deficient and have one 
or more components in poor condition and others are functionally 
obsolete and may no longer be adequate for the traffic they serve. Data 
indicate that the number of deficient bridges has decreased since 2002 
even as the number of bridges has increased. The impact of the Federal 
investment in bridges is difficult to measure. For example, while 
Department of Transportation (DOT) tracks a portion of bridge spending 
on a State-by-State basis, the data do not include state and local 
spending, thus making it difficult to determine the Federal 
contribution to overall expenditures. Understanding the impact of 
Federal investment in bridges is important in determining how to invest 
future Federal resources.
    There has been progress in clarifying Federal goals and linking 
Federal surface transportation programs--including bridges--to 
performance. DOT worked with Congress which adopted provisions in MAP-
21, including provisions that move toward a more performance-based 
highway program. MAP-21 specified that National Highway Performance 
Program funds may only support eligible projects--including bridge 
projects--on the National Highway System. The act also required the 
Secretary of Transportation, in consultation with States and others, to 
establish performance measures for bridge conditions. However, although 
there has been progress in these areas, Congress and the administration 
need to agree on a long-term plan for funding surface transportation. 
As we noted in our 2013 High Risk Update, continuing to fund a Highway 
Trust Fund shortfall through general revenues may not be sustainable 
without balancing revenues and spending from the fund.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                       PROCESS OF REHABILITATION

    Senator Murray. Thank you very much to all of you.
    I go home to Washington State every weekend. And I'm 
hearing from friends, neighbors, businesses, everyone about the 
impact of the Skagit River Bridge closure on their daily lives. 
We've got local stores who are losing a dramatic loss of 
business that they're reporting. Our large companies that move 
goods up and down that highway have had to divert shipments. 
And all of this is happening right in the middle of our tourism 
season, which is so important to that region, too.
    Crews have now removed the debris, I understand, and the 
temporary detours are all in place, impacting a lot of 
businesses around there. But we need a long-term fix if 
possible.
    Mr. Mendez, if I could start with you, can you tell us, 
what is the process and where are we in getting a temporary 
replacement and then the permanent repairs?
    Mr. Mendez. Certainly. Thank you for the opportunity. Let 
me begin by saying that, just like you, we're very thankful 
that there were no casualties during this incident. And I do 
have to mention that we understand there are a lot of issues 
out there, a lot of bridges that are in need of replacement and 
repair. But I think it's important for me to reiterate that, in 
fact, at the State level--and by the way, in case you're not 
aware, I used to be the State DOT director in Arizona. So I 
used to be running a program.
    I can assure that if we identify a bridge that is unsafe, 
we will take immediate action at the State level or the Federal 
level, whether that means we restrict it or close it, those are 
decisions that are made at the front line. With respect to the 
collapse on I-5, the Skagit River Bridge, things are moving 
forward.

                        GOVERNMENT INTERVENTION

    This is a great example of how Government came together at 
the State, Federal, and local levels. They came together to 
serve the needs of the citizens. Obviously, you and the 
congressional delegation were right there from day one, minute 
one, I should say, supporting our efforts to get everything 
back on track.
    I would like to recognize that Governor Inslee and 
Washington State DOT, WSDOT, as they call themselves, Secretary 
Peterson and her staff were right there. Within an hour, I 
believe, some of WSDOT's staff were at the scene. National 
Transportation Safety Board (NTSB) Chairman Hersman and her 
staff, along with one of our engineers, on Friday morning were 
in an airplane on their way to take a look at the situation.
    At USDOT and FHWA, my staff in the State of Washington were 
on the scene within 3 hours looking at the situation, working 
with WSDOT. My staff here at headquarters--and I've got one of 
our engineers here with us, a structural engineer--were on top 
of this from day one.
    And as I mentioned, that following morning, one of our 
engineers from headquarters was in flight with NTSB. And then 
our Central Federal Lands staff, they were also looking at 
potential scenarios to be able to get the temporary bridge on 
track. So we're looking at some very unique situations there.
    We also faced some unique situations with respect to the 
Corps of Engineers. And I'd simply have to say thanks to the 
Corps. We worked very hard to get through those issues to be 
able to move forward on the temporary solution.
    With that, let me tell you where we are with respect to the 
progress today. A couple of days ago, WSDOT moved into place 
one of the temporary bridges. There will be two temporary 
bridges that will be in place by June 20.
    Senator Murray. One north and one south.
    Mr. Mendez. One north and one south that will carry two 
lanes in each direction. It will be restricted in terms of 
speed, I believe. The speed limit will be restricted to 35 
miles per hour. But a lot of things are in play to make this 
happen by June 20.
    We also, as you mentioned, are very engaged in providing 
financial support to move forward with both the temporary work 
that needs to be done and the permanent solution. Everybody, 
again, is very engaged. We used very innovative ideas to move 
this forward. Under Secretary Trottenberg mentioned earlier, we 
have used innovative technology to move the temporary bridges 
into place.
    We also used an innovative approach, design build, to move 
the procurement for the permanent replacement bridge forward. 
And that's a concept we are moving forward on a national basis 
as well.
    And then I do want to recognize that under MAP-21, Congress 
provided the ability for us to use categorical exclusions under 
emergency situations. And WSDOT was the very first, this 
situation was the very first utilization of that provision in 
MAP-21. So that was very helpful, and I'm glad you did that 
under MAP-21.
    With respect to the permanent replacement, we are very 
committed to making that happen by October 1. The innovations 
that I just talked about and the collaboration among local, 
State, and Federal governments is what's getting us there. This 
is a great example of people coming together and really 
addressing the community needs. As you mentioned, the collapse 
has had a major impact to the quality of life, the economy in 
the region, and we intend to get that resolved as quickly as 
possible.
    Senator Murray. Yeah. And we, everybody, really appreciates 
everybody coming together, working together. You said that the 
temporary replacement would be down to 35 miles an hour. 
Understandable, because it's narrow. But that is going to still 
have a serious consequence on a major corridor. When do you 
expect the permanent bridge to be in place?
    Mr. Mendez. October 1. That's our deadline. We're all 
focused on that, and we intend to meet that deadline.

                       FRACTURE-CRITICAL BRIDGES

    Senator Murray. Okay. Appreciate that. You know, the 
collapse of this bridge really was a huge reminder that our 
Nation's infrastructure is aging, I think to all of us. But the 
recent news reports have really highlighted the fact that some 
of our bridges are considered what's called fracture-critical. 
And there's risk associated with the bridge design that is non-
redundant.
    Mr. Mendez, can you help us understand what those two 
phrases mean? And how does the Department of Transportation 
prioritize and address those risks?
    Mr. Mendez. Fracture-critical, that's a very interesting 
concept. So let me try and address a couple of issues that I 
think are very important. The fact that a bridge may have been 
designed as fracture-critical does not mean that the bridge is 
unsafe. As I said earlier, if we determine either at the State, 
local, or Federal level that something is unsafe, we will take 
immediate action to deal with that.
    With respect to the design concept of fracture-critical, 
there are a couple of elements in place that have been in 
place, actually, for decades to address this concern. For 
example, I believe this occurred maybe a couple of decades ago. 
As some of these bridges were in fact being designed, and in 
fact are being designed today. So I want to make sure we 
understand that.

                       ENSURING SAFETY OF BRIDGES

    There are a couple of things that we put into place to make 
sure that these are safe bridges. First and foremost, there was 
a fracture control plan, an approach that was actually 
implemented in concert with the American Association of State 
Highway and Transportation Officials (AASHTO) and FHWA about 
two decades ago.
    That places an extra level of rigor on the safety aspects 
and elements of the fracture-critical structure. It puts 
responsibility on steel manufacturers, the designers, the 
fabricators, the welding inspectors, and the quality control 
and quality assurance personnel to ensure that a bridge is of 
high quality, that it's safe, reliable, even though it may be a 
non-redundant bridge.
    Senator Murray. And ``non-redundant'' means?
    Mr. Mendez. ``Non-redundant'' means that there are 
structures that do have redundant elements, if you will, such 
that when you're looking at a bridge, it's designed to take all 
the forces that are placed upon the bridge and through the 
members translate the forces into a foundation.
    Senator Murray. So basically, if something is fracture-
critical or non-redundant, it doesn't mean it's not safe to 
drive on? You have safety measures in place to assure that they 
are safe?
    Mr. Mendez. That is correct.
    Senator Murray. Okay.
    Mr. Mendez. And can I add one more element?
    Senator Murray. Sure.
    Mr. Mendez. Because I think this is important for all of us 
to understand, because you raised the issue of fracture-
critical.
    When you look at fracture-critical bridges, there are four 
elements that are very, very important as they are being 
designed and as they are in operation. First and foremost, as I 
mentioned, they add an extra layer of safety in the design to 
account for fatigue. With respect to the materials end of it, 
they increase the steel toughness. On the fabrication, 
specifically the welding part of it, they put extra effort into 
that and extra quality assurance on the welding components 
because that is very important.
    And then once it's in operation, a fracture-critical 
bridge, we then have an enhanced inspection process, a more 
hands-on approach to ensure that we're looking at all these 
fracture-critical elements.
    Senator Murray. Okay. I appreciate that. And NTSB has been 
onsite and expect to have their report out. We'll be looking 
very closely at that to determine what happened with this 
bridge. And I apologize for going over, and I turn it over to 
my colleague, Senator Collins.
    Senator Collins. Thank you, Madam Chairman.

                      HIGHWAY TRUST FUND SOLVENCY

    Under Secretary Trottenberg, the Congressional Budget 
Office (CBO) projects that the Highway Trust Fund will become 
insolvent in fiscal year 2015. The administration, as part of 
its budget, has proposed using funds that won't be spent as a 
result of the draw-downs of the war in Iraq and Afghanistan to 
help finance some of our infrastructure needs.
    Those funds, which are called overseas contingency 
operations (OCO) funds here on the Hill, are being targeted for 
virtually everything. They've been mentioned by Senator Reed, 
for example, as a way to lessen the impact of sequestration. 
They've been mentioned by former Senator Kyl as a means of 
improving the position reimbursement under Medicare, the so-
called ``doc fix.''
    This reminds me very much of a few years ago when there was 
a pot of money called ``customs fees'' that were being spent 
over and over and over again. And obviously, this is money that 
is not really being budgeted. It's money that's not going to be 
spent. So it's not as if there's even really a pot of money out 
there.
    So my question to you is, has the administration identified 
other potential means of meeting what are truly huge 
infrastructure requirements in this country?
    Ms. Trottenberg. Thank you, Senator Collins. Certainly I 
recall from my own time on Capitol Hill when a good source of 
revenue came along, it could potentially be claimed many times 
over.
    Obviously, from the administration's point of view, I think 
we wanted to make a priority in saying we were going to engage 
in some nation-building here at home and that funds we had been 
spending overseas we want to invest. But we recognize many on 
the Hill have different ideas about how those funds should be 
spent.
    I think if you look at the past two times that Congress has 
come up with revenue sources for transportation, it has been 
part of a larger, overall budget negotiation, where we've 
addressed a number of different things, ``doc fix,'' you name 
it.
    I think I can say that the White House, the administration, 
we have some other ideas, potentially, about different ways we 
could fund transportation. But clearly, it's going to need to 
be part of a larger bipartisan discussion that we have in the 
context of a budget and tax overhaul deal that's done here on 
the Hill.
    Senator Collins. Would you like to share with us today any 
of those alternative financing main----
    Ms. Trottenberg. Well, I think I'm probably not the person 
to do that. I think, obviously there have been a number of good 
ideas that the States have been pursuing that have been talked 
about here on the Hill, different ways, potentially, you can 
look at upstream revenue sources in terms of petroleum. I think 
there are a lot of good ideas on the table.
    My administration hasn't yet come out publicly for any of 
those. But I think that the President has clearly signaled an 
interest in wanting to work with Congress and find a good 
solution to, obviously, what we all know is a pressing need to 
find revenues for surface transportation.
    Senator Collins. Mr. Herr, this is an issue that I think 
GAO has taken somewhat of a look at. You mentioned the gas tax, 
which is never popular to increase, but has been a traditional 
source.
    What other sources of revenue would be available? Are there 
any innovative approaches being tried by the States? Has GAO 
looked at alternative funding?

                     TRANSPORTATION FUNDING ISSUES

    Mr. Herr. Yes. Thank you for the question, Senator Collins.
    We did a report last year looking at what is called vehicle 
miles traveled (VMT) as one potential option. Vehicle miles 
traveled refers to assessing a fee based on the number of miles 
driven in a given year. In that report, we looked at different 
international experiences as well to see how it's been done, 
for example, in Germany.
    VMT is something that maybe does not resonate widely with 
people. I think there are questions about privacy that are 
associated with that approach that still need to be addressed.

                             TIFIA PROGRAM

    Another area that was mentioned earlier was the TIFIA 
program. With TIFIA, one of the things that people seem to 
accept in terms of tolling are bridge tolls. People seem to 
understand intuitively the idea of needing to get from point A 
to point B, crossing a body of water or something similar. So, 
we were encouraged to see in MAP-21 that TIFIA funding had 
expanded there, too.
    Senator Collins. I was going to ask one of the two of you 
to explain the TIFIA program, because it was substantially 
expanded by MAP-21. I believe that we authorized $750 million 
for this year and $1 billion for next year, and that it's 
estimated that $1 billion in TIFIA funding could leverage $10 
billion in actual lending capacity.
    But I don't think most people understand how this program 
works. Could you give us a little tutorial on the TIFIA 
program?
    Ms. Trottenberg. Yes. Thank you. We are very grateful that 
MAP-21 so greatly expanded the TIFIA program and we've been 
getting a lot of interest around the country.
    But I think one thing we always want to make clear is TIFIA 
is a financing program. We lend money out, and we can lend it 
out at very favorable rates. I was just looking yesterday, I 
think the TIFIA interest rate now is 3 point something percent. 
We can lend the money at very favorable terms. The borrowers 
don't have to pay us back for a number of years.
    But they do have to pay us back, so they are going to need 
a revenue source to pay us back. As Mr. Herr noted, tolling is 
one of the ways that people can pay us back. Sometimes, they 
can do some other type of a tax like a sales tax. That's what 
Los Angeles is doing to build up their metro system. Or it can 
be an availability payment, which is essentially a stream of 
appropriations from a State or local legislature.
    The program offers very favorable lending terms, but it is 
not like TIGER. It is not a grant program, or like our regular 
formula programs. For communities and projects where there is a 
willingness to pay for tolls, it can be a terrific program.
    But I think, writ large around the country, one of the 
things we're still struggling with is, there are a lot of 
places where people don't want to pay tolls, particularly 
potentially for existing facilities where they've been using 
them for free for many years. And as you know, Senator Collins, 
in the rural parts of your State, it's hard to generate enough 
toll revenue to cover the cost of replacing a very old bridge.
    Senator Collins. Absolutely.
    Ms. Trottenberg. So it's a terrific tool in the toolbox. It 
is not the complete answer to our infrastructure challenges.
    Senator Collins. Are TIFIA funds available to private-
sector organizations that want to build or take over a toll 
road?
    Ms. Trottenberg. They have to partner with a public-sector 
entity. We are seeing a lot of that. And the public sector--one 
thing Administrator Mendez was talking about some of the more 
innovative things we're trying to do in contracting with design 
build. We are looking for ways to get the private sector to 
help us bring more efficiency in terms of building and 
operating projects. That can really help drive down costs, and 
that's very, very important. But they do, for TIFIA, have to 
work with a public-sector entity. It could be a State DOT or a 
transportation agency of some sort.
    Senator Collins. Thank you.
    Senator Murray. Senator Boozman.
    Senator Boozman. Thank you, Madam Chair.
    Again, thank all of you all for being here, and I really do 
appreciate your hard work.
    Ms. Trottenberg, with the huge shortfalls in the Highway 
Trust Fund, there is broad agreement that we must make our 
infrastructure investments more efficient. I also serve on the 
Environment and Public Works Committee. And in MAP-21, Chairman 
Boxer, Ranking Member Inhofe worked with members to take a 
balanced and thoughtful approach to project delivery reforms. 
Our bill contained numerous provisions designed to increase 
innovation, improve efficiency, effectiveness, and 
accountability in the planning, design, engineering, 
construction, and financing of the transportation projects.

                       PROJECT DELIVERY DEADLINES

    Expediting project delivery is one area where we can make 
significant improvements. MAP-21 as measured and bipartisan 
National Environmental Policy Act (NEPA) reforms are a step in 
the right direction, I believe. According to the inspector 
general of DOT, DOT has not set any deadlines for the 
implementation of MAP-21's critical NEPA reforms.
    Is there a reason that the Department has not established 
the deadlines for this important responsibility under the law?
    Ms. Trottenberg. Thank you, Senator. I want you to know, we 
agree the MAP-21 has provided us with a lot of good ways of 
improving project delivery, speeding up the permitting process, 
looking at a lot of innovations, and the performance measures. 
That is an area that the Obama administration was working on 
even prior to the passage of MAP-21. We've created an 
interagency task force, essentially, to try and speed up the 
transportation permitting process and get a lot of those 
permits from different agencies like the Army Corps of 
Engineers and Fish and Wildlife Service to move concurrently.
    I think one thing Administrator Mendez testified about a 
little earlier, before you came in, is that we've actually 
gotten some of those categorical exclusions already out and 
operating. The Skagit River Bridge is taking advantage of now 
that you can get a categorical exclusion to rebuild when 
there's been an emergency.
    So I think we've got some of them out. I'm going to turn to 
the Administrator here. I think we do have some deadlines on 
some of the upcoming ones.
    Senator Boozman. Yes. So, Administrator, when is it going 
to get done?
    Mr. Mendez. Yes, sir. I think what the report that you're 
referring to means is that we don't have interim statutory 
deadlines. We do have a schedule in place for all the various 
activities under MAP-21 that need to be accomplished, either in 
rulemaking or guidance and things like that. We do have targets 
for that.
    We internally have some targets that are not public. And I 
believe that may be what they were referring to. We don't have 
those interim statutory deadlines, but we in fact do have 
internal schedules.
    Senator Boozman. So, can you make them public now? When are 
the NEPA reforms going to get----
    Mr. Mendez. Well, there are several of them. I think it 
would probably best if maybe we can coordinate and send you a 
list.
    Senator Boozman. Again, I appreciate it. We've all been 
fighting this battle for years. This is not the first time that 
this administration or the former administrations have realized 
that we've got a problem.

                     ENVIRONMENTAL COMPLIANCE DELAY

    In your testimony, Ms. Trottenberg, you talk about by the 
end of 2014, the Highway Trust Fund will be nearly depleted. We 
all understand that. We already transferred $54 billion over 
from the General Taxpayer Fund. We'll need an additional $85 
billion in general funds over the next 6 years just to keep the 
program afloat at current levels, which is important because, 
as you point out with the bonding, the States are depending on 
current levels so that they can pay those bills back.
    But I think we all agree--and again, Senator Inhofe, 
Senator Boxer disagree on a whole bunch of stuff. This is 
something that our subcommittee, this is something that I think 
almost every Member of Congress, not to circumvent the 
environmental challenges, but to get the agencies talking 
together at the same time and get this done is really 
important.
    Now, can you all tell me what percentage of project costs 
are associated with environmental compliance delay? Not doing 
the right thing, but making a decision? How much is costing our 
current----
    Ms. Trottenberg. We've spent a lot of time looking at this 
question, Senator. I think one thing that is worth remembering, 
although it often doesn't seem apparent, is the vast majority 
of transportation projects qualify for categorical exclusions 
or they qualify for environmental assessments, a much lower 
level of environment work.
    That said, there are some pretty big and complicated 
projects where environmental work can take up a lot of time. I 
think we've tried to do our best to analyze what's happened 
there, and that's part of why we've created, again within our 
administration, an interagency, what we call a rapid response 
team to try and untangle some of the issues.
    I'll give you one that we've discovered because it's very 
relevant to this discussion on bridges. The Coast Guard used to 
be a part of the Department of Transportation. It's now part of 
the Department of Homeland Security. One of the Coast Guard's 
primary legislative mandates is to ensure that they maintain as 
many navigable waterways as they can for boats of as large a 
size as they can.
    This can often be a conflict that we have in terms of, 
we're responsible for building bridges, building them quickly, 
and building them in the most cost-effective way possible. 
Well, those two mandates can often be in conflict. I think one 
thing we've discovered around the country is we were in a lot 
of conflict on a lot of bridge building projects. I can think 
of one in Senator Murray's State.
    So one of the things we've done, Administrator Mendez sent 
one of his top bridge engineers over to be actually embedded, 
and he can talk about this, with the Army Corps to try and help 
untangle what are some pretty deep-seated and complicated hold-
ups on some of these projects.
    Mr. Mendez. Well, let me just reiterate that I used to be 
State DOT director in Arizona. So I've been on the delivery 
end.
    Senator Boozman. So you understand----
    Mr. Mendez. Absolutely.
    Senator Boozman [continuing]. The statement about, and 
again I'm not being argumentative.
    Mr. Mendez. No.

                         CUTTING DELIVERY TIME

    Senator Boozman. I don't know how long the average major 
project takes now. But it's many years. And many of those years 
are involved with this process. And I think we all agree, and I 
know that you, unless your State is very different than my 
State, that you've been very frustrated with the process. And 
unless something has changed dramatically, which I don't think 
it has, and yet this law would help change it significantly, 
it's still taking a very, very long time in your State to get 
things done.
    Mr. Mendez. Yeah. We have implemented, since I've been 
here, an innovation initiative. We call it Every Day Counts. My 
goal under Every Day Counts is to cut project delivery by one-
half, and then to also utilize technology and innovation to 
move our delivery process forward. Within MAP-21, Congress 
provided some very good directives for us to implement to 
address the issue that you're talking about.
    For example, Congress once again provided the option for 
States to take responsibility for the NEPA process. California 
did it, and the last time we checked, I believe they were 
saying they have actually, through a few projects that they've 
done under that process, they've saved anywhere between 18 to 
21 months.
    Texas, we're working with them very closely. We believe 
they will be the next State to utilize this authority. So we're 
doing everything we can to address exactly what you're talking 
about. We need to streamline the delivery process while 
maintaining the environmental protections that are important 
for all of us.
    And, as Under Secretary Trottenberg mentioned, using the 
rapid response team and bringing all those Federal agencies 
together enabled us to get the permit for the Tappan Zee Bridge 
in New York in less than a year. That could never have happened 
if we had done it the normal process, as you're describing.
    President Obama has issued several Executive orders on 
permitting, project delivery, and eliminating rules and 
regulations that inhibit the delivery process for 
infrastructure. So we're doing everything we can to implement 
not only what Congress directed us to do under MAP-21, but also 
administratively a lot of things that we're doing under 
innovation to move the project forward.
    Senator Boozman. Thank you, Madam Chair.
    Could we as a subcommittee, because I really do think that 
this is important in the sense of moving with the reforms, 
could we ask that we have a report on meeting the deadlines of 
MAP-21, which are in the bill, in the sense of the reforms?
    Senator Murray. Okay. I will ask my staff and see what the 
best way of getting that information is.
    [The information follows:]

    FHWA has made significant progress in implementing all of MAP-21, 
including rulemakings required by Subtitle C--Acceleration of Project 
Delivery. With respect to statutorily required rulemakings with 
deadlines under Subtitle C, we have completed one of the required 
rulemakings (section 1315) and have met the statutory deadline for 
issuing a notice of proposed rulemaking (NPRM) for two other 
rulemakings (sections 1316 and 1317). We have developed schedules for 
drafting all statutorily required rulemakings, and we are managing to 
those schedules.
    The Department must comply with the Administrative Procedure Act 
(APA). The APA requires that agencies provide notice and the 
opportunity for the public to comment. This applies to all rulemakings 
regardless of whether they are statutorily required or initiated by the 
Department. Agencies are required to consider all comments before 
determining the next step in the rulemaking process. After considering 
all comments, the Department may decide to proceed with a final rule, 
issue a supplemental NPRM, withdraw the rule, or combine some of those 
actions. It is the Department's practice not to establish completion 
dates for final rules for which an NPRM has not been issued or for 
which the comment period is still open. However, we have developed 
rulemaking schedules for the NPRM stage for all rulemakings required by 
MAP-21, and we are developing schedules for the next appropriate 
rulemaking action soon after the NPRM comment period closes.
    The Department engaged stakeholders and the public early and often 
in the life of MAP-21 and has considered the input received during 
these outreach sessions when drafting rulemaking. However, most 
contacts with people outside of the Federal Government are prohibited 
during a rulemaking. This limits our ability to collaborate with State 
officials and other stakeholders during the rulemaking process, which 
is currently underway for all project delivery and environmental 
rulemakings with a statutory deadline.
    Additionally, the Department works to keep the public informed 
about the status of our rulemakings. Each month, the Department issues 
an Internet report that updates the public on our progress on 
significant rulemakings. Information about the Department's rulemakings 
can be found at: http://www.dot.gov/regulations.
    The Department has acted early and aggressively to complete 
required MAP-21 rulemakings and will continue to do so. The table below 
charts the Department's progress with the MAP-21 rulemakings.


                              MAP-21 REQUIRED RULEMAKINGS WITH STATUTORY DEADLINES
----------------------------------------------------------------------------------------------------------------
               Section                          Title                   Deadline                  Status
----------------------------------------------------------------------------------------------------------------
1106.................................  National Highway         04/01/14 (Final Rule)..  On Schedule (Drafting
                                        Performance Program.                              Underway).
1111.................................  National Bridge and      10/01/15 (Final Rule)..  On Schedule (Drafting
                                        Tunnel Inventory and                              Underway).
                                        Inspection Standards.
1112.................................  Highway Safety           10/01/13 (NPRM)........  On Schedule (Drafting
                                        Improvement Program.                              Underway).
1203.................................  National Goals and       04/01/14 (Final Rule)..  On Schedule (Drafting
                                        Performance Management                            Underway).
                                        Measures.
1313.................................  Surface Transportation   06/28/13 (Final Rule)..  Behind Schedule
                                        Project Delivery                                  (Drafting Underway).
                                        Program.
1315.................................  Categorical Exclusions   10/30/12 (NPRM)........  Completed (Final Rule
                                        in Emergencies.                                   Issued 02/19/13).
1316.................................  Categorical Exclusions   02/28/13 (NPRM)........  On Schedule (NPRM
                                        for Projects within                               Published 02/28/13;
                                        Right-of-Way.                                     Drafting Underway for
                                                                                          Final Rule).
1317.................................  Categorical Exclusions   02/28/13 (NPRM)........  On Schedule (NPRM
                                        for Projects of                                   Published 02/28/13;
                                        Limited Funding                                   Drafting Underway for
                                        Assistance.                                       Final Rule).
1318.................................  Programmatic Agreements  01/29/13 (NPRM)........  Behind Schedule
                                        and Additional                                    (Drafting Underway).
                                        Categorical Exclusions.
1405.................................  Highway Worker Safety..  11/30/12 (Final Rule)..  Behind Schedule
                                                                                          (Drafting Underway).
1525.................................  State Autonomy for       03/30/13 (NPRM)........  Completed (Final Rule
                                        Culvert Pipe Selection.                           Issued 01/28/13).
----------------------------------------------------------------------------------------------------------------

    Senator Boozman. Okay. Again, like I said, we're 
concentrating on bridges and things. When you look at the 
reports, the infrastructure is terrible throughout the country. 
And yet, with the fiscal crisis, we simply have to identify 
ways that I think we all agree on that can lessen the costs as 
we go forward. And I think this is an important thing.
    So again, I'd just like to know, kind of the implementation 
dates of the law and just making sure that we're getting that 
done. And then if we need to be of help in getting that sorted 
out, what can we do as a subcommittee to help you get the 
information that you need or the resources to get it done? 
Thank you.
    Senator Murray. Very good. And I appreciate that request 
very much.

                    COLUMBIA RIVER CROSSING PROJECT

    And speaking of the bridge you were just speaking about, in 
terms of running into the Corps and the Coast Guard, after a 
very long time, it's the I-5 bridge, part of that same corridor 
that the Skagit River Bridge went down is the I-5 span that 
goes over the Columbia River between Vancouver, Washington, and 
Portland, Oregon. It's called the Columbia River Crossing (CRC) 
Project. I know you're familiar with it. We call it the CRC out 
there. I actually started discussing this with former Senator 
Hatfield, the Republican from Oregon, more than 20 years ago. 
So I understand, Senator Boozman, when you're talking about 
takes a long time to get anything done.
    But it is a critical piece of infrastructure on the I-5 
corridor. Needs to be replaced. It's an old bridge. It is a 
major bottleneck along that corridor, and it needs to be shored 
up for a lot of different reasons. We look at the bridge north 
of it in Skagit and see what happens, and the dynamics that 
would occur on that corridor are just incredibly difficult to 
think about.
    Secretary Trottenberg, I just wanted to ask you, What would 
a bridge collapse like the one on the I-5 corridor between two 
very large cities, Vancouver and Portland, occur on the 
regional economy if that were to collapse because we didn't get 
it done?
    Ms. Trottenberg. Clearly, Chairman Murray, I think the 
results there would be catastrophic and something I think we 
greatly fear.
    I do want to reiterate, though, what Administrator Mendez 
has said, which is, obviously we've had the tragedy of the 
Skagit River Bridge. But I think in general, we've worked 
pretty closely with States to do--I mean, one thing I think in 
part because of some of the good guidance of GAO and just good 
work over the years with the States, we have really improved 
year by year our bridge inspection regime.
    Look, obviously, sometimes accidents do happen. But I 
think, particularly on big, important crossings like that one 
that have a huge effect on the economy and commuting times and 
you-name-it, we're engaged in pretty rigorous oversight and 
inspection.
    But clearly, this is what we're seeing in the TIGER and 
TIFIA programs, some major bridge programs, major projects that 
have really what we would consider being national significance 
coming to us, wanting Federal assistance.
    Senator Murray. Well, this is clearly a project that we 
don't want to be shut down because one of those of maintenance 
says, ``No more.'' So we've been working on it for a very long 
time. It's a very complex project. It's two different States, 
two different cities, very different communities, very complex.
    And we've now spent more than a decade just working to 
secure the State and Federal funds. We've conducted scores of 
reviews, working very hard to meet all of the permit 
requirements. And the Federal Government has really done its 
part. It's been remarkable on the level of Federal funds and 
commitment to this project. And the State of Oregon has done 
their part. We are now waiting on State legislators in my 
State, in Olympia, to do their share.
    Madam Secretary, can you talk about the need for Washington 
State legislators to step up at this time?
    Ms. Trottenberg. Chairman Murray, you know our own 
Secretary has been out a couple of times to visit with your 
legislators. I know Administrator Mendez has been there and 
Administrator Rogoff from the Federal Transit Administration. I 
think DOT has conveyed the message about what an important 
project we think this is.
    We've, as you say, put a lot of Federal resources in and I 
think put a lot of time and effort into working through what 
were some very, no question, complicated environmental and 
operational issues. We hope to extend in continued partnership 
with you all and members of your legislature.
    Senator Murray. We do, too. So, thank you. Working very 
hard on that.
    Mr. Herr, GAO has placed funding the Nation's service 
transportation system on its list of high-risk areas. That list 
also includes things like acquiring defense weapons systems, 
managing information on terrorism, and protecting Federal 
computer systems against cyber attacks.
    Can you tell us why GAO considers the financing of Federal 
transportation programs to be as critical to our country as 
those issues?

             LONG-TERM INFRASTRUCTURE INVESTMENT PRIORITIES

    Mr. Herr. Yes, it's been one of the recurring themes 
through the hearing today. The debate about infrastructure 
revolves around the need to make investments now as well as for 
aging assets, some of which were damaged as the bridge crossing 
you were just discussing in Washington State. It's been a 
problem for 20 years. It takes time to get these prioritized, 
it takes time to get them funded, and then additional time to 
get them built.
    We also see the competition that the Highway Trust Fund 
faces with general revenues. Congress is always looking for an 
additional revenue source and offsets. Because of that, we felt 
that it rose to the prominence of putting it on the high-risk 
list as a national priority. The Comptroller General felt very 
strongly about that.
    Senator Murray. Okay. Mr. Mendez, I wanted to ask you, 
before the Skagit River Bridge collapsed, it was not scheduled 
for replacement for years and years to come. Other bridges in 
our State were considered a much higher priority for 
significant repairs and even replacement.
    I'm interested in asking you how States prioritize their 
work. If the I-5 bridge over the Skagit River was not high on 
the priority list, it's now collapsed, then what kinds of 
conditions can we expect to find on bridges that do make it to 
the top of the list for significant overhauls?
    Mr. Mendez. Let me try and run briefly through the 
prioritization process that is in place. And in fact, under 
MAP-21, with the implementation of performance management 
concepts, we believe there actually is more flexibility built 
in for the States to help make those decisions.
    However, we, as I've advised all of our personnel within 
FHWA, even though we do support the efforts that are underway, 
we don't make project selections. That's left up to the local 
and State governments. We do have an influence to play in how 
they prioritize.

                      BRIDGE INSPECTION PROCEDURES

    Now, we don't make final selection. But it's important, and 
again, maybe it's part of my background, that the decisions 
that are made at the front line because States know best about 
a lot of the issues and the factors that are happening within 
the State. It would be very difficult, and I've been in that 
position, to have somebody in Washington, DC, try to establish 
a priority for the State of Washington.
    I believe the decisionmakers, with the bridge management 
systems that are in place that we promote, a lot of the 
procedures that are in place in terms of the inspections of 
bridges, and that level of information, really have all 
information that is used to arrive at a priority.
    We also at the Federal level have a national bridge 
inventory that is a snapshot, once a year, that we compile of 
the bridge inspection information from all the States. But 
again, that's only a snapshot. A lot of the information that is 
kept at the State level is in addition to what's in the bridge 
inventory. And I think taking all of that information together, 
plus the oversight that we provide on the bridge inspections 
and the bridge program overall, helps the States determine what 
are the best priorities for them.
    Senator Murray. Well, the Federal Aid Highway Program is 
based on the principle that States own and operate the National 
Highway System. That means even though the Federal Government 
provides funding for capital programs, the States set their own 
priorities for these.

                     ADDRESSING CRITICAL CORRIDORS

    So, Secretary, how can we make sure the Federal funds 
address problems along our most critical transportation 
corridors such as our interstate roads?
    Ms. Trottenberg. Chairman Murray, I think that's really one 
of the fundamental challenges that faces American 
transportation in the way our system is designed. I know it's 
something the GAO has written extensively and very thoughtfully 
on, because we have the creative tension, which you're hearing 
here. The Federal Government puts in a lot of funding, and 
Congress wants to put their own priorities and policy stamp on 
the work. But there is a system that has largely stayed on.
    And as Mr. Mendez says, we do try and work with States and 
let them also set their priorities at the State and local 
level, because we can't dictate everything out of Washington; 
that wouldn't work.
    So it is a fundamental tension in our system. I think 
again, as we've talked about today, MAP-21 is going to give us 
a great opportunity to achieve some consensus throughout the 
transportation community. The Federal Government, working with 
States and localities, on how we can improve performance and 
how we can take what are increasingly scarce Federal dollars 
and put them toward national priorities and use data to help us 
figure out what those priorities should be.
    It will always be, I think, in the transportation space, it 
will be a process where a lot of stakeholders have to be 
brought along. We are not going to be heavy-handed at the 
Federal level. But Congress has clearly given us a mandate to 
go out and work with our stakeholders and try and transition to 
a more performance-based system. We are very excited. We think 
it's a great challenge. We really look forward to working with 
our partners to try and make sure we're putting our investments 
where they're most needed, critical bridges and highways and 
transit systems around the country.
    Senator Murray. Senator Boozman.
    Senator Boozman. Thank you, Madam Chair.

                         DEPARTMENTAL APPROACH

    In following up on that, and again, I know this is 
difficult, I'd like to start with you, Mr. Herr, in the sense 
that in your report titled ``Key Issues and Management 
Challenges for DOT'' that came out, you found that the DOT's 
program oversight has generally been process oriented rather 
than outcome oriented. MAP-21, however, required DOT to 
transition to a goal-oriented performance-based approach for 
highway programs. The GAO noted that ``DOT faces institutional 
barriers implementing these performance-based programs.'' And I 
think that's what Ms. Trottenberg was alluding to, the fact 
that we have States involved. We have congressmen involved.
    Do you believe that DOT is now prepared to make the 
transition? And when should Congress expect some results? So 
why don't we start with you, Mr. Herr? If you can just comment 
on that. And then, Director Mendez, and Director Trottenberg, 
if you all would just comment on that. And then, as you said, 
Ms. Trottenberg, in relation, you can comment on the kind of as 
you see it from the outside. But if you all would comment on 
the problems, doing that, I think that would be real helpful.
    Mr. Herr. Sure.
    Senator Boozman. But I think it is something we definitely 
need to get done.

                      MAP-21 TRANSITION CHALLENGES

    Mr. Herr. Yes. Thanks for the question. As discussed here, 
we think MAP-21 offers an important framework for the 
transition at DOT. In fact, at this point there are timelines 
in the law that need to be met for implementation and 
performance measures that need to be established.
    That said, and it's been reflected in the discussion, the 
relationship between DOT and the States, with the States 
setting their priorities, is one where it's going to require a 
different approach in the sense that there will be deadlines 
that will be missed at the State level. There will be goals 
that will be missed. And how DOT and the Federal Government 
comes back and says, ``Hey, it's time to shift resources 
because this particular target hasn't been met'' would be a 
change in the culture of how this program has been operated 
over the years.
    We found instances, looking at the emergency relief 
program, where some of the basic principles that had been laid 
out in the regulations weren't being followed. So, DOT went 
back and recovered funds, in that case, about $230 million. The 
law establishes an important framework, but then the devil will 
be in the details in terms of how that all works out.
    It will take, I'm sure, some hard conversations that have 
to be had if some of these targets begin to be missed.
    Director Mendez.
    Mr. Mendez. Yeah. It's a very complex topic. When I first 
looked at the issue of performance management, I thought I had 
a professional opinion about what it entailed. But as we 
started reaching out to a lot of the stakeholders and a lot of 
the transportation community, it became clear that it's a very 
complex topic. So we're going to have to continue working on 
this.
    And we do have the schedule, which we'll share with you, on 
performance management. But there is also one other element 
within MAP-21 that is----
    Senator Boozman. Can I ask one thing before we move on?
    Mr. Mendez. Sure.
    Senator Boozman. And I don't mean to interrupt. But as an 
old State director, give me an example of some of the tension 
that you would have in the sense of performance.
    Mr. Mendez. Well, I won't speak on behalf of State DOTs.
    Senator Boozman. No.
    Mr. Mendez. But I'll provide my experience.
    Senator Boozman. Sure.
    Mr. Mendez. I think one of the issues that you 
traditionally find a level of concern with is when you're using 
measures, immediately after we report, let's say, the first 
year of measures, a State will be compared to State Y and that 
has been a concern for a lot of States: Are we going to use 
performance management to actually improve the decisionmaking 
process within States, or to compare States? That has been a 
big concern. And so, we'll work on that.
    I think our objective is to make better decisions, to make 
informed decisions, and invest limited resources wisely. And I 
think that's really what all of us want to do as a Nation. And 
so that's just one example of some of the issues that we will 
be facing.
    Now, I did want to mention that within MAP-21 there is a 
provision with respect to minimum standards for certain 
bridges. If 10 percent or more of the total deck area of NHS 
bridges in a State is on structurally deficient bridges, then 
the State must devote funding from one program to really focus 
on those issues.
    So Congress included a provision in MAP-21 to help us 
improve bridge conditions. But it is a very complex issue. We 
have had outreach with over 10,000 stakeholders in the past 8 
months, and we're going to continue to work on it.
    Senator Boozman. Ms. Trottenberg.
    Ms. Trottenberg. Yeah. As Mr. Mendez said, I mean, it's 
interesting. In MAP-21 we tallied it up, and Congress gave us 
100 separate legislative mandates to be implemented over a 2-
year period, which is going to turn into about 50 or 60 
rulemakings. I know sometimes folks on your side say we love 
rulemakings. Well, we get a lot of them from Congress. On the 
performance front, we've got nine different sets of 
rulemakings, not just on the highway side, but in transit and 
in roadway safety.
    And we are, again as Administrator Mendez pointed out, 
working with State DOTs, MPOs, you name it. And the feedback 
we're getting, I could safely say, is all over the map. I take 
Washington DOT, which is, I think, a real leader in performance 
measures. They track a lot of measures. They're very excited 
about moving in this way. They're already starting to really 
target dollars where they're going to get the best performance.
    Some other DOTs, perhaps in States where they are in 
budgetary difficulties, they don't want to track anything. They 
already feel that they don't have the funds they need just to 
keep their program up and running. They're very concerned 
about, is DOT going to give them now, with all these 
rulemakings, a complicated new regime of things to track? And 
so we're really walking a fine line there. We want to move 
everybody from where they are to a more performance-based 
system. But as Administrator Mendez says, we have to be 
careful. Every State is not in the same place. And that is a 
challenge for us at the Federal level.
    Senator Boozman. No, that's a good discussion, very 
helpful. Thank you.
    Thank you, Madam Chair.
    Senator Murray. Thank you.

                         OVERSIZE LOAD PERMITS

    I wanted to go back to what happened on the Skagit River 
Bridge in my State. Like a lot of trucks that travel on our 
roads and bridges, the truck that actually hit that bridge was 
carrying an oversized load. When trucking companies move 
oversized loads, they have to get a special permit from the 
State government.
    Administrator Mendez, can you tell me what the Federal role 
is in the permitting process?
    Mr. Mendez. I think you may have raised a couple of issues. 
One is the weight issue, and one is the height issue.
    On weight and height issues, basically, the States provide 
the permits for both. Specific to the height issue, we 
administer and publish the Manual on Uniform Traffic Control 
Devices, the MUTCD for short. This is a document that basically 
provides standards for devices on streets, highways, and 
bicycle trails that are open to the public. We provide a 
standard that low-clearance signs, warning signs, must be 
provided when a clearance is less than 12 inches above the 
State statutory vehicle height.
    Now, the complication there is that every State may have 
different maximum vehicle heights. So, if you're a trucker 
going through various States, you have to be on the lookout 
for----
    Senator Murray. Which you do on the I-5 corridor.
    Mr. Mendez. Yes, you do. And so, that's our role, to ensure 
that through the MUTCD, we provide that level of oversight and 
direction.
    Now, it's up to the individual States to execute the 
direction. And so, on the Skagit River Bridge incident, I know 
NTSB is still reviewing that. I do know they have a preliminary 
report on the Web site that provides some preliminary 
information. But we're going to wait until the end of their 
conclusions to see what next steps we need to take.
    Senator Murray. Or if there are any recommendations.
    Mr. Mendez. That is correct.

                   NEW TECHNOLOGIES TO IMPROVE SAFETY

    Senator Murray. Okay. There's a lot of new technologies 
that can make it easier to access data if you're a truck driver 
going through different places with different regulations. 
Those technologies actually could help make bridge clearances 
more accessible to highway users.
    Has the Department looked at any of those new technologies 
about how they could help create some better safety traffic to 
prevent future accidents like we had in Washington State?
    Mr. Mendez. Actually, just this past March, we started a 
research project with technology to get to the exact issue I 
believe you're talking about.
    Senator Murray. Describe it to us.
    Mr. Mendez. My understanding is that it's a technology that 
will help identify height clearances, or opening, I think is 
the way it's framed, as trucks move through the bridges in this 
case, or tunnels. So we're looking at the technology side to 
see if there's a solution there.
    Senator Murray. Okay. Well, this has been a very helpful 
hearing. Certainly, what happened at home in Washington State 
on the Skagit River Bridge has just been an eye-opener for 
everyone in my State. But as we have talked about here, this is 
not a unique challenge. There are many, many bridges in my 
State and across the country. Certainly, you've all talked 
about the funding challenge as we try to replace this aging 
infrastructure. And we will be looking very seriously at that 
in this committee as we move forward in the appropriations 
process.

                     ADDITIONAL COMMITTEE QUESTIONS

    So I appreciate all of you coming here. This subcommittee 
will hold the record open for 1 week for any additional 
questions, and look forward to your comments. And again, thank 
you to all of you for participating.
    [The following questions were not asked at the hearing, but 
were submitted to the Departments for response subsequent to 
the hearing:]
             Questions Submitted to Hon. Polly Trottenberg
              Questions Submitted by Senator Patty Murray
    Question. When trucking companies move oversized loads on the 
national highway system, they must obtain a special permit. What is the 
Federal role in the process of permitting oversize loads, with regard 
to both overweight and over height loads?
    Answer. States are responsible for issuing oversize/overweight 
permits that govern truck movement on highways within the State. In 
some regions of the country, applicants can receive a multi-state 
permit. These special permits are issued based on a number of factors, 
including the size and weight of the load, the geometry and condition 
of bridges and highways on the requested route, the presence of highway 
construction work zones, day and time of travel, and other conditions 
necessary to ensure safe travel.
    Federal oversight of State permitting activities is not 
administered on a per load basis, rather, States are required to 
certify annually to the Federal Highway Administration (FHWA) that 
State and Federal truck size and weight laws are being enforced, report 
on the number of citations that have been issued, and report on the 
number and type of load permits that were issued. Failure to certify 
can trigger penalties to be applied against the State's Federal-aid 
highway program funds.
    Question. In the case of the Skagit River Bridge, there were 
questions about the height of the truck and whether any height 
limitations were marked on the bridge. What are the Federal 
requirements for signage and how does the Department of Transportation 
(DOT) work with States on uniform standards for posting clearances?
    Answer. The Federal Highway Administration issues the Manual on 
Uniform Traffic Control Devices (MUTCD) to establish a national 
standard for all traffic control devices installed on any street, 
highway, or bicycle trail open to public travel. The MUTCD requires the 
use of a low clearance sign to warn traffic of clearances less than 12 
inches above the State statutory maximum vehicle height. Each State 
sets its own statutory maximum vehicle height. When the clearance is 
less than the State's legal maximum vehicle height, the MUTCD 
recommends that a low clearance sign be erected along with a 
supplemental distance plaque at the nearest intersecting road or wide 
point in the road at which a vehicle can detour or turn around.
    Question. The Moving Ahead for Progress in the 21st Century Act 
(MAP-21) consolidated many of the smaller highway programs, eliminating 
funding dedicated to bridge projects under the Safe, Accountable, 
Flexible, Efficient Transportation Equity Act: A Legacy for Users 
(SAFETEA-LU). Given this consolidation, how can DOT's rules 
implementing MAP-21 encourage States to spend adequate funds on the 
repair of existing infrastructure? How can the rules help States to set 
meaningful repair targets and prioritize investments to achieve a state 
of good repair for bridges?
    Answer. MAP-21's transition to a performance and outcome-based 
program will provide a means to more efficient investment of Federal 
transportation funds. The use of performance management principles will 
allow States and Metropolitan Planning Organizations (MPOs) to evaluate 
the performance trade-offs of different investment strategies and make 
more informed decisions when investing in the highway network, 
including bridges.
    MAP-21 requires each State to establish a risk-based asset 
management plan and a bridge management system for its National Highway 
System (NHS) facilities. MAP-21 also includes requirements that hold 
States accountable for the condition of their bridges. If, for a 3-year 
period, more than 10 percent of a State's NHS bridge deck area is on 
bridges classified as structurally deficient, then the State must 
reserve a portion of its National Highway Performance Program funds 
exclusively to address the problem. In this situation a State must also 
reserve a portion of its Surface Transportation Program apportionment 
for the improvement of bridges that are not on Federal-aid highways.
    Question. Additionally, States apply a strategic and systematic 
process for operating, maintaining, and improving their bridges with a 
focus on engineering and economic analysis to arrive at an overall 
program of maintenance, preservation, rehabilitation, replacement, and 
protection actions. As part of this process, States evaluate bridge 
conditions and expected deterioration rates, risk factors (such as 
vulnerability to seismic loads, vehicular or ship impact), scour, 
security concerns, impact to local communities, and availability of 
funding. The list of considerations that ultimately lead to the 
selection of projects is varied and often site-specific. The overall 
selection of bridge projects generally supports performance targets 
that States have established related to conditions and functionality of 
their bridge inventory. By the time MAP-21 expires, Congress will have 
transferred tens of billions of dollars in general fund revenues to the 
Highway Trust Fund (HTF) to fund our transportation system. If, 
beginning in fiscal year 2015, outlays from the HTF were limited to 
match receipts, how much would overall apportionments drop?
    Answer. Using estimates from the fiscal year 2014 President's Mid-
Session Review (MSR) released in July 2013, FHWA could distribute $16 
billion in new obligation limitation and $739 million in exempt funding 
in fiscal year 2015. This assumes that $4.6 billion in carryover 
balances would be available at the beginning of fiscal year 2015 and 
the Highway Account of the HTF would have a zero balance at the end of 
fiscal year 2015.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                  highway public-private partnerships
    Question. In 2008, the Government Accountability Office (GAO) 
issued a report entitled ``More Rigorous Up-Front Analysis Could Better 
Secure Potential Benefits and Protect the Public Interest.'' In this 
report, GAO noted that the Department of Transportation (DOT) has 
promoted public-private partnerships (PPPs), but has done little to 
help State and local governments evaluate the trade-offs involved in 
entering a public-private partnership or determine how such 
partnerships can be established in a way that protects the national 
interest. GAO recommended that the Department develop objective 
criteria for identifying potential national public interests in highway 
public-private partnerships and identify additional legal authority, 
guidance or assessment tools that may be needed for the Department to 
play a targeted role in ensuring that such national interests are 
appropriately considered in the development of public-private 
partnerships.
    The fiscal year 2013 Transportation, Housing and Urban Development, 
and Related Agencies Senate report included language directing the 
Secretary of Transportation to develop such objective criteria and 
identify additional legal authority, guidance or assessment tools, as 
recommended by the GAO.
    When will DOT develop these criteria and identify additional legal 
authority, guidance or assessment tools and provide them to the 
subcommittee?
    Answer. We at the Department are happy to work with Congress in 
order to better promote public-private partnerships and agree there is 
an important Federal role in not only ensuring national interests are 
considered, but also in providing a robust framework for State and 
local governments to evaluate potential tradeoffs and seek best 
practices in innovative project development and delivery.
    Section 1534 of the Moving Ahead for Progress in the 21st Century 
Act (MAP-21) directs the DOT to undertake a number of activities to 
support the prudent use of the public-private partnership (P3) option 
for delivering highway projects while protecting the public interest. 
The Federal Highway Administration (FHWA) Office of Innovative Program 
Delivery is actively engaged in these development activities, which 
include the development of model P3 transaction contracts, the 
dissemination of best practices, and the provision of technical 
assistance to public agencies.
    The P3 model contracts will help to educate public agencies and 
stakeholders on key provisions in highway P3 contracts, the trade-offs 
that have to be made, and ways to provide protections to the traveling 
public and State and local governments. Best practices will be 
developed and posted on the FHWA Web site addressing practices in each 
of the four key phases of a P3 project that are focused on delivering 
value and protecting the public interest while continuing to attract 
private sector investment. The model contracts will be completed by 
April 1, 2014, and we anticipate posting best practices starting in 
summer 2014.
    FHWA's P3 technical assistance activities include the development 
of reference materials, guidebooks, primers and tools to assist in 
educating public sector policymakers, legislative and executive staff, 
and transportation professionals on P3s. FHWA recently launched a P3 
Toolkit on FHWA's Web site at www.fhwa.dot.gov/ipd/p3/toolkit. The 
Toolkit will eventually include materials addressing Federal 
requirements related to P3s as well as four key phases of P3 
implementation: development of legislation and policy, planning and 
evaluation, procurement, and monitoring and oversight.
    The initial components in the Toolkit are focused on the planning 
and evaluation phase. A particularly noteworthy element of the tool kit 
is the P3 Value-for-Money Analysis To Learn and Understand Evaluation 
(P3-Value) tool. P3-Value is an Excel-based educational tool supported 
by primers, user guides and other guidebooks. Using P3-Value, 
practitioners will gain hands-on exposure to, and understanding of, the 
concepts and complex steps involved in conducting a value-for-money 
analysis to evaluate whether a P3 delivery option offers value in 
comparison to traditional delivery methods. Additional materials will 
be added to the broader P3 Toolkit as they are developed.
      highway public-private partnerships and excess toll revenue
    Question. The same GAO report recommended DOT take action regarding 
public-private partnerships and excess toll revenue. The GAO report 
stated, ``to ensure that future highway public-private partnerships 
meet Federal requirements concerning the use of excess revenues for 
federally eligible transportation purposes, we recommend that the 
Secretary of Transportation direct the Federal Highway Administrator to 
clarify Federal-aid highway regulations on the methodology for 
determining excess toll revenue, including the reasonable rate of 
return to private investors in highway public-private partnerships that 
involve Federal investment.''
    What action has DOT taken on this recommendation?
    Answer. We believe that this recommendation in GAO Report 08-44 has 
been overtaken by changes made to the relevant statutory language in 23 
U.S.C. 129 under MAP-21. First, the limitations on the use of toll 
revenues under 23 U.S.C. 129(a)(3) no longer include a reference to 
``excess'' toll revenues being used for other title 23 eligible 
purposes; instead, such uses are simply allowed so long as the facility 
is adequately maintained.
    Second, the provision in 23 U.S.C. 129(a)(3) allowing toll revenue 
to be used for ``a reasonable return on investment of any private 
person financing the project'' was modified in MAP-21 to include the 
phrase ``as determined by the State or interstate compact of States 
concerned.'' In adding this language, we believe that Congress has 
expressed its intent that DOT should not be involved in determining 
whether such returns are reasonable, and we thus do not intend to issue 
any regulations on this topic.
                          non-compete clauses
    Question. Some recent public-private partnership transactions have 
included ``non-compete'' clauses where a local government, by contract, 
commits itself not to build roads or transit within a corridor of a 
certain highway. Other deals include ``compensation clauses'' that 
require the local sponsor to pay the private entity for reduced traffic 
or tolls. Some of these deals involve long-term leases of 75 to 99 
years in which the public owner relinquishes control of the 
transportation infrastructure. For example, the Indiana toll road 
privatization deal required the State not to build a competing highway 
within 10 miles on either side of the highway. Sixty percent of traffic 
on Indiana toll road is interstate in nature, making this a critical 
corridor to the national transportation network and economy.
    How does DOT weight or otherwise consider the terms of non-compete 
clauses and their impact on the national public interest? How are non-
compete clauses taken into consideration when evaluating Transportation 
Infrastructure Finance and Innovation Act (TIFIA) applications?
    Answer. Non-compete clauses and compensation clauses are among the 
many factors which can impact the creditworthiness of a project. MAP-21 
modified 23 U.S.C. 602(b) directing the Secretary to provide TIFIA 
credit assistance to projects found to be eligible according to 
creditworthiness standards. This statute precludes the Department from 
considering the impact of non-compete or compensation clauses outside 
of their impact on the creditworthiness of a loan.
                                 ______
                                 
               Question Submitted by Senator Tim Johnson
    Question. As we discuss the critical transportation needs of our 
Nation, I would like to take the opportunity to ask about a narrower, 
but still important, potential infrastructure issue. Motorcycles are 
very important to my State. According to the city of Sturgis, the 
annual Sturgis Motorcycle Rally generates more than $800 million in 
economic activity to the region from an estimated 417,000 visitors who 
stay an average of nearly 6 days. That's a lot of riders, who cover 
millions of miles across multiple States and who experience all sorts 
of road conditions on their way to my State. What more can we be doing 
to ensure that the safety of some of our most vulnerable road users, 
motorcyclists, is considered as our Nation's infrastructure is updated, 
repaired or maintained?
    Answer. Over the last 15 years, the number and rate of motorcyclist 
fatalities on America's highways have generally risen dramatically. 
According to crash data for 2011, 4,612 motorcyclists were killed. The 
Department of Transportation is engaged in a number of activities, 
including research, technical guidance, and partnerships with 
motorcycle organizations, to help States and local partners reduce the 
number of motorcyclist fatalities and injuries on our Nation's 
roadways.
    In 2011, the Department spearheaded a domestic scan focused on 
motorcycle safety. The scan, supported by the National Cooperative 
Highway Research Program, led to the issuance of ``Leading Practices 
for Motorcyclist Safety'' which highlights a broad array of effective 
practices that can be adopted at the State, city, and county levels to 
address motorcyclist safety.
    In 2010, a multidisciplinary team of Federal, State, local 
government and association officials met with officials from five 
European countries to assess and evaluate infrastructure improvements 
designed to aid motorcyclists. The information obtained by the team 
included several design, maintenance, and operational changes that 
could be implemented in the United States to improve motorcyclist 
safety. As a result, the Federal Highway Administration (FHWA) is 
implementing Road Safety Audits (RSAs) on sites with high motorcycle 
crashes and will be developing a case study report that summarizes the 
costs, benefits, and lessons learned for each RSA. This document should 
provide State and local agencies with examples and advice that can 
assist them in implementing motorcycle RSAs in their own jurisdictions.
    The FHWA is also currently conducting a Motorcycle Crash Causation 
Study (MCCS). The collected data will be used to study potential causes 
of motorcycle crashes to help develop countermeasures. The MCCS is the 
most comprehensive research effort into the causes of motorcycle 
crashes in the United States in more than 30 years. The data collection 
will continue through 2014, and a final report is expected in 2015.
    The Highway Safety Improvement Program (HSIP) provides Federal 
safety funds to States, with the primary goal of reducing fatalities 
and serious injuries on all public roads, including those traveled by 
motorcycles. HSIP funds can be used for strategies, activities or 
projects on a public road that are consistent with a State Strategic 
Highway Safety Plan and correct or improve a hazardous road location or 
feature, or address a highway safety problem. Example projects to 
improve motorcycle safety may include installing hazard warning signs, 
high friction pavements, and conducting motorcycle safety education 
campaigns.
    The Department supports the use of motorcycle helmets by all 
riders. Motorcycle helmet laws covering all riders, often referred to 
as universal helmet laws, are the most effective method of increasing 
and maintaining helmet use and avoiding fatalities and disability due 
to head injuries. Yet only 19 States, the District of Columbia and 
Puerto Rico have universal helmet laws that require all riders to wear 
a helmet. In 2012, use of compliant motorcycle helmets was nearly 90 
percent in States with universal laws compared to about 50 percent in 
States without these laws. Over the past 30 years, research has 
consistently shown the negative effects of weakening or repealing 
motorcycle helmet use laws. The weight of the evidence is that repeal 
of helmet use laws decreases helmet use, and that States that repeal 
universal helmet use laws experience increased fatalities and injuries. 
Conversely, States that have adopted or reenacted universal laws have 
experienced significant increases in helmet use and declines in 
motorcyclist fatalities and injuries.
    The safety of all road users, including motorcyclists, is important 
to the Department and we will continue to help States and local 
partners reduce the number of fatalities and injuries on our Nation's 
roadways.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
    Question. With the Nation facing a critical shortfall in 
infrastructure funding it is important that the Federal Government 
explore ways to encourage private investment in infrastructure 
projects. Private activity bonds serve as a valuable mechanism to jump 
start critical infrastructure development and encourage public-private 
partnerships.
    Does the Department of Transportation believe the statutory cap for 
highway and freight transfer facility private activity bonds should be 
lifted or increased in light of this?
    Answer. The President's fiscal year 2014 budget request included an 
increase in the statutory cap for highway and freight transfer facility 
private activity bonds from $15 billion to $19 billion. As a result of 
a growing interest in private activity bonds, the Department currently 
anticipates hitting the current $15 billion cap in the next 2 to 3 
years. The Department supports raising the cap to provide longer-range 
certainty to project sponsors that private activity bonds will remain a 
viable tool for financing public-private partnerships.
    Question. Understanding that rail and bridge projects are difficult 
to fund, it is even more critical to improve efficiencies of current 
programs, such as the Railroad Rehabilitation and Improvement Financing 
program (RRIF), to make the program more attractive to improve our rail 
infrastructure. It was noted in the President's fiscal year 2014 budget 
request that on average RRIF loans take 695 days to process, more than 
seven times longer than the statutory requirement.
    What is the Department of Transportation doing to improve this 
process and decrease the processing wait time for RRIF loans requests 
within the statutory requirement of 90 days?
    Answer. As you know, the Department is very supportive of 
increasing investment in our rail freight infrastructure, and the RRIF 
program is a valuable tool for providing Federal credit assistance to 
support rail projects. As a consequence, we are working hard to 
identify ways to improve the application process.
    First, the Federal Railroad Administration (FRA) has been working 
more intensively with applicants at the pre-application stage of the 
process to encourage more efficient review once the application is 
submitted. At pre-application meetings, FRA informs applicants how to 
demonstrate viable project and financing structures in their 
applications.
    FRA is also taking innovative approaches to working with short 
lines such as partnering with State entities that support railroad 
applicants' projects (e.g., Ohio Rail Development Commission (ORDC)). 
Often, these organizations have more resources or expertise in the 
areas of finance and/or Federal financing than the requesting 
railroads.
    FRA is also considering a shorter review process for smaller, 
simpler applications.
    Question. Does the Department have recommendations to improve the 
RRIF program and make it more attractive for private investment?
    Answer. The Department of Transportation (DOT) and FRA strongly 
support RRIF financing coupled with private investment for rail 
improvements. As mentioned earlier, FRA is also considering a shorter 
review process for smaller RRIF applications. FRA will continue to 
evaluate potential program changes and would be happy to work with the 
subcommittee in its reauthorization efforts.
    Question. Seeking alternative ways to finance transportation 
projects and battle growing congestion, the Value Pricing Pilot Program 
(VPPP) is one effort that provides States with limited authority to 
toll interstates to fund improvements, reduce congestion, improve air 
quality and rehabilitate aging roads.
    Currently, the State participation in VPPP is limited to 15. In a 
world of constrained resources, do you believe the number of slots 
available to States to participate in VPPP should be increased?
    Answer. As you are aware, the VPPP is an experimental program that 
is designed to assess the potential of different value pricing 
approaches for reducing congestion. Under this program, tolls may be 
imposed on existing toll-free highways, bridges, and tunnels, so long 
as variable pricing is used to manage demand. Other eligible activities 
under this program include pre-implementation studies and value pricing 
pilot projects that do not involve tolls; however, under the Moving 
Ahead for Progress in the 21st Century Act (MAP-21), no additional 
funding has been authorized for this program. Slots under the VPPP are 
allocated to State or local agencies; once an agency holds a slot in 
the program, there is no limit on the number of value pricing projects 
that can be implemented under the slot. At the present time, 7 of the 
15 authorized slots have been permanently allocated to States that have 
executed agreements for tolling projects under the program. The 
remaining eight slots have been temporarily reserved for State agencies 
that are currently pursuing value pricing studies and non-toll value 
pricing projects; these slots may become available in the future as 
those activities are completed.
    The Department does not have a position on whether Congress should 
amend the statute authorizing the VPPP to increase the number of slots 
available under this program.
    Question. Section 1512 of MAP-21 amended 23 U.S.C. 129 to provide 
additional flexibility for new capacity tolling, so long as the number 
of free lanes does not decrease. As in previous law the legislation 
also authorized toll agreements for the reconstruction of a toll-free 
Federal-aid highway other than a highway on the interstate system. This 
sets up a potential situation where a State toll authority could both 
reconstruct an existing non-interstate Federal-aid highway and add 
capacity in the same project. However, converting the existing free 
lanes to a tolled facility under 23 U.S.C. 129 (a)(1)(F) could be 
interpreted to violate the requirements of 23 U.S.C. 129 (a)(1)(b).
    Clearly the reconstruction and conversion of existing free non-
interstate Federal-aid highways to tolled facilities is authorized 
under MAP-21. Can the Department confirm that projects that seek both 
reconstruction and expansion of additional lanes will be allowed to 
move forward?
    Answer. The DOT agrees with your interpretation of these tolling 
provisions. This situation is addressed in a set of questions and 
answers on the section 129 tolling program that have recently been 
posted on the FHWA Web site, available at http://www.fhwa.dot.gov/ipd/
revenue/road_pricing/tolling_pricing/section_129_
faqs.htm. (See Question 13:)

    ``Question 13: May new lanes added to an existing toll-free non-
Interstate highway, bridge, or tunnel be tolled under 23 U.S.C. 129(a)?
    ``Answer 13: Yes. Under 23 U.S.C. 129(a)(1)(B), a new lane that is 
to be initially constructed may be tolled so long as the total number 
of toll-free lanes, excluding auxiliary lanes, after construction is 
not less than the number of toll-free lanes, excluding auxiliary lanes, 
before construction.
    ``Note that if the improvement project also includes the 
reconstruction or replacement of the existing lanes in addition to 
capacity expansion, then the entire facility may be tolled pursuant to 
23 U.S.C. 129(a)(1)(E) (for bridges and tunnels) or 23 U.S.C. 
129(a)(1)(F) (for highways).''
                                 ______
                                 
                 Questions Submitted to Phillip R. Herr
            Questions Submitted by Senator Richard J. Durbin
    Question. Has the Department of Transportation (DOT) taken adequate 
action in response to your recommendations in the 2008 report? What 
other actions can DOT take to better protect public interests in 
public-private partnership transactions?
    Answer. DOT has taken action to implement provisions of Public Law 
112-141, the Moving Ahead for Progress in the 21st Century Act (MAP-
21), which responds to recommendation in our 2008 report that DOT 
better protect public interests in public-private partnership 
transactions (see GAO-08-44). Our report noted that highway public-
private partnerships provide advantages for State and local 
governments, but that potential costs and trade-offs exist. We 
concluded that while DOT had done much to promote the benefits of 
public-private partnerships, it had done comparatively little to either 
help States and localities weigh the potential costs and trade-offs, or 
to assess how national and public interests might be protected in these 
arrangements.
    MAP-21 directed the Secretary to compile and make available on its 
Web site best practices on how States and localities can work with the 
private sector on transportation projects, provide technical assistance 
to States and localities regarding proposed public-private partnership 
agreements, and develop standard public-private partnership transaction 
model contracts for the most popular types of transportation public-
private partnerships. Through its Office of Innovative Program 
Delivery, the Federal Highway Administration has developed a number of 
primers, including a toolkit for State legislators, and recently 
undertook a public outreach process to inform development of standard 
public-private partnership transaction model contracts.
    Our 2008 report also recommended that DOT clarify its regulations 
on the methodology for determining excess toll revenue, including a 
reasonable rate of return to private investors. We believe such 
clarification remains important to ensuring that future highway public-
private partnerships that involve Federal funding meet Federal 
requirements that excess revenues be used only for federally eligible 
transportation purposes. DOT declined to implement this recommendation 
and DOT officials told us they believe this is a decision best left to 
the States.
    Question. The GAO has testified that long-term leases of existing 
transportation assets are driven in large part by the tax benefits 
accrued to the private lessor of the asset. However, these tax benefits 
are often not part of the publicly available information regarding 
privatization transactions. What value would greater transparency of 
the tax benefits and financing details of public-private partnerships 
have for stakeholders in understanding of the benefits and risks of 
these deals?
    Answer. The private sector can receive potential tax deductions 
from depreciation on assets involving private sector investment and the 
availability of these deductions were important incentives to the 
private sector to enter some of the highway public-private partnerships 
we reviewed in our 2008 report (see GAO-08-44). Federal tax law allows 
private concessionaires to claim income tax deductions for depreciation 
if the concessionaire has ``effective ownership'' of the property. 
Effective ownership may require lengthy concession periods; among other 
things, the length of a concession must be greater than or equal to the 
useful economic life of the asset. Financial and legal experts told us 
that this requirement contributed to the 99-year and 75-year concession 
terms for the Chicago Skyway and Indiana Toll Road, respectively.
    Making tax benefits more transparent would help to ensure that all 
stakeholders have a complete understanding of the benefits and risks 
over the lifetime of public-private partnership arrangements. However, 
State and local stakeholders may not be concerned about any revenue 
costs to the Federal Government resulting from tax deductions.
    The benefit of greater disclosure of benefits and risks is not 
limited to public-private partnerships. Federal law requires sponsors 
of federally funded projects costing more than $500 million (or any 
project receiving a Transportation Infrastructure Finance and 
Innovation Act of 1998 (TIFIA) loan) to have financial plans designed 
to provide reasonable assurance that sufficient financial resources 
will be available to complete a project. However, DOT does not 
presently require States to present an estimate of the financing costs 
of major projects, which can be substantial. For example, in 2009, 
Maryland DOT officials provided us the estimated financing costs 
associated with the Intercounty Connector project, which were $1.4 
billion, more than half as much as the $2.5 billion estimated cost of 
designing and constructing the project itself. Financing costs can 
consume large shares of States' Federal and other transportation 
funding over several years and constrain a State's transportation 
capital improvement program. Disclosing these costs, which we 
recommended in 2009 (see GAO-09-751), would help decision makers 
consider and make fully informed decisions about whether to approve the 
substantial investment of public funds that major projects require. DOT 
officials have told us they are planning to implement our 
recommendation in the fall of 2013.
    Question. What practices or guidelines ensure that specific non-
compete and compensation clauses are adequately considered by DOT when 
evaluating TIFIA applications?
    Answer. The inclusion of non-compete or compensation clauses in 
projects with TIFIA credit assistance is a local decision. Project 
sponsors must determine how best to structure a contract for a project 
with a TIFIA component. If non-compete or compensation clauses are 
included, the TIFIA office considers those clauses from both a legal 
and a credit perspective. Specifically, the TIFIA office determines if 
the non-compete or compensation clauses are legally sound, and if so, 
how the clauses might affect a project's creditworthiness, which is a 
primary component of the TIFIA selection process.

                         CONCLUSION OF HEARING

    Senator Murray. And with that, the hearing is recessed.
    [Whereupon, at 11:34 a.m., Thursday, June 13, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
